<html>
<title> - FEDERAL LAW ENFORCEMENT: LONG-TERM IMPLICATIONS OF HOMELAND SECURITY NEEDS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 FEDERAL LAW ENFORCEMENT: LONG-TERM IMPLICATIONS OF HOMELAND SECURITY 
                                 NEEDS
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2001

                               __________

                           Serial No. 107-123

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                           U.S. GOVERNMENT PRINTING OFFICE
83-181                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
             Christopher Donesa, Staff Director and Counsel
       Nicholas P. Coleman, Professional Staff Member and Counsel
                          Conn Carroll, Clerk
                  Julian A. Haywood, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 5, 2001.................................     1
Statement of:
    Bonner, Robert, Commissioner, U.S. Customs Service...........    17
    Gallagher, Frank, Deputy Assistant Director, Criminal 
      Investigative Division, Federal Bureau of Investigation....    56
    Hutchinson, Asa, Administrator, Drug Enforcement Agency......    48
    Loy, Admiral James M., Commandant, U.S. Coast Guard..........     8
    Ziglar, James W., Commissioner, Immigration and 
      Naturalization Service.....................................    27
Letters, statements, etc., submitted for the record by:
    Bonner, Robert, Commissioner, U.S. Customs Service, prepared 
      statement of...............................................    22
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, article dated December 5, 2001          82
    Gallagher, Frank, Deputy Assistant Director, Criminal 
      Investigative Division, Federal Bureau of Investigation, 
      prepared statement of......................................    59
    Hutchinson, Asa, Administrator, Drug Enforcement Agency, 
      prepared statement of......................................    51
    Loy, Admiral James M., Commandant, U.S. Coast Guard, prepared 
      statement of...............................................    12
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Ziglar, James W., Commissioner, Immigration and 
      Naturalization Service, prepared statement of..............    31


 FEDERAL LAW ENFORCEMENT: LONG-TERM IMPLICATIONS OF HOMELAND SECURITY 
                                 NEEDS

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:40 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, Gilman, and 
Schakowsky.
    Staff present: Christopher Donesa, chief counsel and staff 
director; Nicholas P. Coleman, professional staff member and 
counsel; Conn Carroll, clerk; and Jim Rendon, congressional 
fellow.
    Mr. Souder. I would officially like to call this hearing to 
order. Good morning. Thank you all for coming. We are fortunate 
to have what is truly an all-star panel of witnesses with us 
today. I would first like to express my appreciation to each of 
you for taking the time from your schedules during an 
extraordinary difficult period to be with us this morning.
    We are joined by the heads of four of our major Federal law 
agencies, Admiral James Loy, the Commandant of the Coast Guard; 
Commissioner Robert Bonner of the U.S. Customs Services; 
Commissioner James Ziglar of the Immigration and Naturalization 
Services; and Administrator Asa Hutchinson of the Drug 
Enforcement Agency. We will also hear from Mr. Frank Gallagher 
of the Federal Bureau of Investigation.
    The September 11th terrorist attacks prompted the 
initiation of the largest criminal investigation in American 
history, as well as extraordinary efforts by the Federal 
Government to prevent future incidents and secure American 
borders, citizens and infrastructure.
    I want to recognize the truly exhaustive work that each of 
your agencies has done under the most difficult circumstances 
to protect our Nation. We thank you and your personnel and 
support you fully in these endeavors and in the many challenges 
which the current situation continues to pose on a daily basis.
    The focus of our hearing today is the equally extraordinary 
demands which have now been placed on Federal law enforcement 
to simultaneously deal with your day-to-day missions such as 
drug interdiction, criminal investigations and enforcement of 
many laws which each of you have been charged to oversee.
    Several agencies have greatly increased work hours for 
their employees and redeployed a significant proportion of 
their assets to homeland security. But the issue for us is not 
homeland security.
    As the subcommittee responsible for oversight of our 
justice system, the question for us quickly becomes what is 
left and what now needs to be done. It has been widely 
acknowledged that additional funding and planning are necessary 
to reinforce the execution of traditional law enforcement 
missions in addition to homeland security.
    But this is not a simple question of simply providing more 
resources. We must consider how best and most realistically to 
cope with the changing and rapidly increasing demands on 
Federal law enforcement agencies.
    As an example, our ongoing series of oversight hearings on 
border security have suggested that it is not enough simply to 
provide funding for more border patrol agents. We must resolve 
tough questions as to where we will recruit such agents, how 
quickly we will train them and what the resulting impact will 
be on the places from which these new agents will be taken.
    As another example, we are robbing Peter to pay Paul when 
we reinforce our airline security by taking agents from the 
FBI, DEA and Customs. Short-term necessary evils ultimately 
will not stand in the stead of adequate medium and long-term 
planning.
    We also need to ensure that the end result of the long-term 
planning which all of our government is being forced to do at 
lightning speed does not over-compensate for any one problem. 
Members of Congress and others have proposed or discussed 
merging functions from several current law enforcement agencies 
into a single new agency with responsibility for protection of 
the homeland.
    If such a process were to take place, it must recognize the 
equal important of other missions carried out by these 
agencies. The Coast Guard, for example, must continue to be 
strongly supported in its efforts to save lives through search 
and rescue operations, to protect and to interdict drugs.
    Our hearing will examine three primary issues: First, what 
has been the immediate impact of the redeployment on law 
enforcement assets on critical areas such as drug addiction and 
other criminal enforcement.
    Second, what is the current status of long-term planning 
within Federal agencies to ensure the continuation of vigorous 
law enforcement while simultaneously addressing the additional 
demands of homeland security?
    Third, what impact would proposals to consolidate certain 
functions into a new agency have on the ability of existing 
agencies to carry out their conventional missions?
    Fortunately, as we discussed at a Drugs and Terrorism 
Conference at DEA yesterday, some of these efforts have a 
synergistic effect. Cracking down on terrorism will also 
facilitate the accomplishment of other missions.
    For example, in Newfoundland, when passengers grounded on 
September 11th had all bags searched, large quantities of the 
drug, Ecstasy, were found. Other overlapping examples will 
include tracking illegal immigrants, intelligence operations, 
money laundering and other new laws which will help catch other 
criminals as well as potential terrorists.
    Again, my thanks to all the witnesses. We look forward very 
much to the opportunity to discuss each of these issues with 
such a distinguished panel.
    Now, I would like to yield to Ms. Schakowsky.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 82357.001
    
    [GRAPHIC] [TIFF OMITTED] 82357.002
    
    [GRAPHIC] [TIFF OMITTED] 82357.003
    
    Ms. Schakowsky. Thank you, Mr. Chairman. Thanks to this 
incredible panel of people who have come to answer some of the 
questions and concerns that the chairman has outlined.
    The hearing today is to discuss two matters, the impact the 
new focus on homeland security is having on our law enforcement 
agencies and the possible consolidation of existing law 
enforcement agencies to create a single homeland security 
agency.
    Given the new demands, our law enforcement agencies and 
officers have risen to the increased work load since the 
terrorist attacks of September 11th. I commend our law 
enforcement and security personnel for the time and effort they 
have made and continue to make for our protection.
    Since the attacks on September 11th, the Nation has been 
struggling to understand and to adapt to a new reality. We are 
creating new tools and organizational structure to 
appropriately fit our security needs. In this process, we must 
be careful. We must ensure that these agencies are adequately 
funded to accomplish their original missions in addition to the 
new and critical mission of national security. We must have 
collaboration among the law enforcement agencies and we must 
evaluate proposals for new agency structures.
    Yet, in all of this it is essential, too, that we not lose 
sight of the principles and freedoms that we hold most dear as 
Americans. The safety of our Nation and our residences is a 
critical priority and we must do whatever is necessary to 
ensure homeland security.
    At the same time, it is important that agencies with 
multiple missions like the Immigration and Naturalization 
Services pay careful attention to appropriately balancing 
enforcement with the other services they provide. This will be 
a particular challenge for the INS and I am interested to hear 
more about the plan to restructure the agency.
    I also encourage my colleagues on this committee to 
continue to monitor both aspects of this agency's mission. I am 
also, as their chairman is, concerned about the diversion from 
conventional Federal law enforcement functions as a result of 
the sudden and unanticipated reallocation of resources.
    I am concerned with many of the recent law enforcement 
efforts surrounding this investigation and the general efforts 
to strengthen the fight against terrorism. I want to emphasize 
while I firmly believe we need to stop terrorists here and 
abroad and as we make structural and policy adjustments to do 
this, that we have to uphold the constitution and the civil 
rights and civil liberties inscribed in it.
    I have a few questions and look forward to engaging in a 
worthwhile discussion with the witnesses on this subject today.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you very much. Before proceeding, I would 
like to take care of some procedural matters. First, I ask 
unanimous consent that all Members have five legislative days 
to submit written statements and questions for the hearing 
record; that any answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by the Members and 
the witnesses may be included in the hearing record, that all 
Members be permitted to revise and extend their remarks. 
Without objection it is so ordered.
    I would again like to welcome and thank all the witnesses. 
As an oversight committee, it is our standard practice to 
testify under oath, so if each of you would rise and raise your 
right hands, I will administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
has answered in the affirmative.
    I will now recognize the witnesses for their opening 
statements. Admiral Loy, you are recognized for 5 minutes.

STATEMENT OF ADMIRAL JAMES M. LOY, COMMANDANT, U.S. COAST GUARD

    Admiral Loy. Thank you, Mr. Chairman, Distinguished 
Members. Good morning. Thanks very much, Mr. Chairman and Ms. 
Schakowsky, for the comments about the work being done by not 
only the people you see at this table, but by literally 
hundreds of thousands of members of our organizations as they 
have made every effort to do the Nation's business over the 
last 3 months.
    I appreciate the chance to discuss the Coast Guard's role 
in Federal law enforcement and the service-wide implications of 
the new homeland security challenge. The Coast Guard is, among 
many of other things, some of which the chairman mentioned, the 
Nation's law enforcement presence afloat. We are the 
enforcement arm at sea for Commerce, for Justice, for State, 
for DOD, for Treasury and for the Drug Czar.
    We array our ships and planes and people against multiple 
asymmetric national security threats, including drugs, illegal 
migrants and fish stock predators as well as terrorism which 
has captured all of our attention in the last several weeks.
    Drug interdiction, for example, is now and must remain a 
national security priority. Drugs have a pervasive and 
corrosive impact on our society, contribute to violent crime, 
disease and nearly 17,000 deaths in 1998.
    Just yesterday an Atlanta Journal article suggested that 
there were Middle East operatives attempting to set up shop in 
South America to take advantage of the drug profits associated 
with the cocaine trade that would in fact become yet another 
example of a significant funding engine for international 
terrorism.
    That is the nature of the challenge that we have in front 
of us.
    In addition, illicit profits are clearly financing 
terrorist organizations. This linkage we find the need to 
interrupt. The Coast Guard is the designated lead agency for 
the maritime end of drug interdiction and shares the lead 
agency responsibility for air interdiction with the Customs 
Service.
    Prior to September 11th and since September 11th we 
continue to take this responsibility very seriously and remain 
committed to this mission with its now wider implications.
    The Coast Guard supports, first and foremost, the balanced 
approach that is represented in the National Drug Control 
Strategy. We work very closely with all of our interagency 
partners. We meet often together in various formats to make 
certain that the complimentary efforts that we have are 
additive with respect to the accomplishment of the goals 
stressed in the National Drug Control Strategy.
    Our operations rely on our interagency partners as well as 
foreign, military and law enforcement counterparts that we use 
all the time. Mostly they also rely on a very solid 
intelligence service underpinning, a foundation that each of 
us, I think, would cite as being absolutely an imperative to 
the ability of our respective organizations to get our jobs 
done.
    Much of that orderly plan, as you know, was interrupted on 
September 11th.
    Our role in migrant interdiction is as important as ever. 
In fiscal 2001, the Coast Guard interdicted about 4,000 people 
trying to illegally enter the United States. Again, just in the 
last 2 days, a very significant case off the coast of Florida 
points out once more the importance of our ability to continue 
that mission.
    On my desk this morning was a cable from Ambassador Kern in 
Haiti registering concerns on his part for even rumors that 
would continue to have the potential to set off mass-migration 
challenges that are always right at the borderline of being a 
reality from Haiti and, as we know, from Cuba.
    That 2001 was a relatively typical year. The 4,000 people 
that I just mentioned being interdicted. We attempt to make 
certain that the notion of illegality and unsafe passage at sea 
is the premise that we attempt to breed back into cells of 
migration generators.
    1994, however was not a typical year. We all remember the 
crush of that particular mass migration in the summer and fall 
when over 65,000 lives were saved at sea by the Coast Guard, 
but all associated with mass migrations from both Haiti and 
from Cuba.
    These days the countries involved primarily are Cuba, 
Haiti, the Dominican Republic, China, and Ecuador. But on any 
given day there are 40 different nationalities represented 
somewhere in passage in the Caribbean theater trying to find 
their way to the United States. That difference between the 
haves and the have-nots around our world will make that a 
challenge for us well into the foreseeable future. If anything, 
I see that gap actually widening.
    The third thing I would speak about just quickly is our 
fisheries enforcement mission. The Coast Guard is the only at 
sea enforcement authority for fisheries regulations for our 
Nation. Our efforts in this area continue to be critical to the 
effective management of a $25 billion U.S. industry, the 
commercial fishing industry, to ensure that our fish stocks are 
not depleted.
    Furthermore, while inspecting a vessel's catch and gear to 
ensure compliance with fisheries management regulations, we 
also have the opportunity as the chairman was suggesting 
earlier, to gain value in our other missions, verify crew 
members status and identify, enforce safety regulations, and 
for this particularly extremely dangerous occupation, rated 
literally the most dangerous occupation in the United States.
    Following the terrorist attacks on September 11th, the 
Coast Guard immediately responded to every coast in our Nation, 
increasing Coast Guard presence to protect our ports and 
maritime transportation infrastructure. Clearly the port safety 
and security mission now stands at least equally with search 
and rescue as our No. 1 priority.
    Over the last month, our primary focus has remained on 
maritime homeland security.
    However, the Coast Guard's role in port security 
responsibilities has not been without cost, as you have been 
suggesting, because we have been required to re-evaluate the 
distribution of cutters and aircraft resources among all of our 
law enforcement missions to meet these surge operations 
resulting from September 11th.
    Our multi-mission culture actually was one of the greatest 
advantages we had on September 11th. Because our people are 
multi-mission in character, our assets, ships, boats, planes, 
helicopters are also all multi-mission in capability. So, I was 
able to basically say, ``Take a left and go to Port Security'' 
because that was the most prevalent need of the Nation on 
September 11th and has been since.
    The challenge, obviously, is as we try to define the new 
normalcy of what constitutes our required dedication to port 
security into the future and what is that net gain associated 
with our capability to do all those other things the chairman 
was challenging us to be responsive to in his opening 
statement.
    We will do all of that and more. A simple bar chart here 
offers at least a visible note as to relative mission resource 
dedication on September 10th when we were sort of normally 
deployed around the world doing lots of different things and 
the attention that all of a sudden the bar all the way to the 
left, port security and safety acquired in terms of our 
operational investment of energy and resources in the immediate 
aftermath of the tragic events of September 11th.
    Mr. Chairman, at the other end of the day the future 
efforts represent a challenge to us meeting all of our law 
enforcement goals. We will take that on. We have made a great 
effort already to find a sustainable and effective balance 
among our missions, but at current resource levels as you point 
out, combined with our significantly heightened homeland 
security presence that I do not see an end to in the 
foreseeable future, we will need a boost in order to continue 
to do those things we mentioned before as being normal Coast 
Guard activities and pay attention to this heightened profile 
on homeland security.
    Over the last 3 months, I have been basically building for 
Governor Ridge a maritime security game plan. We have briefed 
that through Secretary Mineta and on to Governor Ridge with, I 
think, good acceptance at the other end of the day.
    The bottom line is, in order for us to rebalance from what 
we surged to on September 11th and 12th, when we went from 
about a 1 or 2 percent dedication of assets to port security, 
it is now somewhere over 50.
    Our instincts as an organization are to send things to a 
sour case and then back away until we find that sustaining 
level. That's that new normalcy I spoke about just a moment 
ago. We look forward to working with the committee to find the 
proper balances, both as
it relates to mission dedication and the resources to do those 
things for America.
    I look forward to your questions, sir.
    Mr. Souder. Thank you, Admiral.
    [The prepared statement of Admiral Loy follows:]
    [GRAPHIC] [TIFF OMITTED] 82357.004
    
    [GRAPHIC] [TIFF OMITTED] 82357.005
    
    [GRAPHIC] [TIFF OMITTED] 82357.006
    
    [GRAPHIC] [TIFF OMITTED] 82357.007
    
    [GRAPHIC] [TIFF OMITTED] 82357.008
    
    Mr. Souder. Mr. Bonner.

 STATEMENT OF ROBERT BONNER, COMMISSIONER, U.S. CUSTOMS SERVICE

    Mr. Bonner. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to speak to the 
committee. It has actually been a while since I have seen 
Congressman Gilman. It is good to see you again, Ben.
    Let me start off by saying that addressing the terrorist 
threat has been the highest priority of the U.S. Customs 
Service. It is the highest priority and it has been since 
September 11th.
    I think I can assure this committee that although the 
resources of the U.S. Customs Service are severely strained, 
and they clearly are, that we are certainly going to continue 
our role in drug interdiction and drug trafficking 
investigations. That remains a priority of the U.S. Customs 
Service.
    In fact, in some ways I believe that our heightened state 
of security that we have gone to at the U.S. Customs Service 
along the border, with the INS, is in some ways strengthening, 
rather than weakening our counter-drug mission. Moreover, I 
think there is a nexus between drug trafficking to some degree 
and the funding of terrorist organizations.
    Since September 11th, the U.S. Customs Service has been 
focusing on ensuring homeland defense. It is a role that we are 
in many ways, the U.S. Customs Service, is well prepared to 
play. Our presence at the 301 ports of entry into the United 
States across the country puts the U.S. Customs Service in a 
prominent position to protect America and to prevent terrorists 
and the implements and weapons of terrorism from entering the 
United States.
    Eight thousand U.S. Customs inspectors and canine 
enforcement officers are stationed across America and are 
responsible collectively for processing millions of passengers 
and vehicles and cargo shipments entering the United States 
each day.
    Their expertise in screening and inspecting both goods and 
people crossing our borders is a crucial asset in our counter 
terrorism response. In addition, approximately 2,700 Special 
Agents of the U.S. Customs Service are trained and experienced 
in conducting investigations, including financial 
investigations and investigations into the unlawful export of 
weapons and technology and equipment that is potentially useful 
to international terrorist organizations against our country.
    These investigators are supported, these Special Agents are 
supported by Intelligence Analysts who also, as you know, Mr. 
Chairman, work very closely with the U.S. intelligence 
community in developing and tracking information.
    This subcommittee is very aware and familiar with the 
Customs Air and Marine Interdiction Division which has assumed 
an important role in response to September 11th. I believe you 
know the skill of the Customs pilots and marine enforcement 
officers in patrolling America's seas and skies. Right now, by 
the way, part of those assets are supporting the NORAD mission 
protecting the United States.
    In many respects, Mr. Chairman, our response to terrorism 
is an outgrowth of our traditional enforcement mission from 
interdicting illegal narcotics to tracing money used to fund 
illegal activity to investigating the illegal export of weapons 
and technology to the inspecting of goods and cargo for 
contraband.
    All of those things contribute to and I think compliment 
and strengthen our efforts at the U.S. Customs Service to 
combat the terrorist threat.
    I have established at Customs Headquarters a new Office for 
Anti-Terrorism within the agency. I have appointed an 
experienced security expert and senior military leader to head 
that office who reports directly to me. That is to better focus 
our efforts and our training and our detection capabilities 
against terrorist weapons, including weapons of mass 
destruction.
    I should also mention the cooperation within the 
administration and the important role that Governor Ridge and 
the Office of Homeland Security play.
    This cooperation, I believe, is essential both to ensure 
that we are effectively responding to the terrorist threat and 
in addition, effective coordination by all the Federal partners 
that are involved in the counter terrorism effort, and you have 
many of them right here at this table in front of you, can help 
relieve the strain within each of our respective agencies that 
we individually face.
    Immediately after the terrorist attacks on September 11th, 
Customs implemented a Level One security alert. That is the 
highest level of alert of the U.S. Customs Service. We did this 
in conjunction with the INS. But that is the highest level of 
alert short of actually shutting down our borders. That alert 
calls for sustained and intensive examinations, including 
heightened inspection of both people and goods crossing our 
borders. We still remain at Level One alert today.
    Along with the INS, Customs has bolstered security at all 
our borders, especially along our northern border with Canada. 
We now staff every border crossing, even those in remote 
locations, with a minimum of two armed inspectors 24 hours a 
day, 7 days a week.
    Maintaining that minimum, while ensuring a smooth and 
timely flow of trade across our border has required a 
significant expenditure of resources by the U.S. Custom 
Service. Our front line personnel, our inspectors and canine 
enforcement officers, are working 12-to 16-hour days, 6 and 7 
days a week. A vast amount of overtime, far more than normal, 
is being expended by the inspectors of the Customs Service.
    We have temporarily detailed over 100 inspectors to the 
northern border and we are adding another 50 within the next 
few days.
    Turning to our investigative activities since September 
11th, we have of course assigned agents to assist the FBI and 
others on the Joint Terrorism Task Forces. That has occurred 
after September 11th and has been reduced somewhat over the 
last 2 months.
    We have also contributed, as I believe you know, Mr. 
Chairman, 110 agents to the Federal Sky Marshal Program. I note 
that while the strain on our personnel has and continues to be 
great under a Level One alert, that we look forward to 
offsetting some of that pressure through the funding of new 
inspectors and special agent positions in our fiscal year 2002 
budget. I will tell you that we will bring those new hires on 
as quickly and as efficiently as possible.
    We have been requested and we continue to provide 
assistance, as I mentioned, to NORAD with respect to our P 3AEW 
aircraft. We have implemented, by the way, several initiatives 
that this committee should be aware of. Let me just briefly 
mention them.
    The first is Operation Green Quest. That is a major effort 
to starve international terrorist groups of their financial 
wherewithal. Green Quest, by the way, draws upon the formidable 
expertise and the long-standing money laundering expertise 
within the U.S. Customs Service. Green Quest is an operation 
led by Customs and it includes the participation of other 
Treasury law enforcement agencies, as well as the Department of 
Justice and the FBI.
    We are also using Customs expertise in what are called 
Strategic Investigations through Operation ``Shield America.'' 
This operation is aimed at the unlawful export of unlicensed 
weapons, equipment and technology that could be used by 
international terrorist organizations.
    We have also created a Customs-Trade Partnership against 
terrorism, working with Trade we have undertaken an initiative 
with the trade community to tighten security of commercial 
cargo, to better secure that, the supply chain, and to deny 
access to the supply chain by terrorist organizations.
    So, we have also moved to enhance the quantity and quality 
of advanced information that Customs and other Federal agencies 
get. In that regard, Mr. Mica of this committee and others in 
the Congress were helpful in making mandatory advanced 
passenger information that is going to be very, very useful to 
both Customs and to the INS.
    In addition, we are working at an inter-agency level with 
my counterparts who are seated here at the table with me, to 
find ways to better secure the borders into the United States 
against the terrorist threat. That is developing a broad, 
integrated, coordinated response.
    In fact, last Friday afternoon, I met with both 
Commissioner Ziglar and Admiral Loy to further develop a 
coordinated border strategy. We have also been actively engaged 
in discussions with both the governments of Canada and Mexico 
to increase information sharing and develop common security 
measures for processing of people and goods from those 
countries into the United States.
    So, we have been focusing a lot on, certainly, the 
terrorist threat, understandably in light of the attacks on 
America on September 11th and the continuing threat that Al 
Qaeda and associated terrorist organizations pose to our 
country.
    I will say I think a lot of what we have done actually has 
made it more difficult for drug trafficking as we have 
intensified our overall presence, particularly at the border. I 
think the evidence is there. Actually after we implemented the 
Level One alert, Mr. Chairman, looking at the data for about 
the first 3 weeks or so, and I am talking about the southwest 
border, essentially, we believe the traffickers were 
withholding shipments because of the tightened security and 
examinations and inspections that were taking place on the 
southwest border.
    The traffickers on the Mexican side were holding back their 
shipments, in my judgment, for several weeks, until it became 
necessary to move their shipments. So, in October we actually 
have seen a substantial increase in drug seizures along our 
borders. In fact, if you compare October of this year with 
October 2000, there has been an approximately 30 percent 
increase in drug seizures that has taken place.
    Just one other thing I will mention along the area and then 
I'm going to wrap this up. But in the area of our drug 
investigation capability, that is there has not been a 
substantial reduction in the time that our Special Agents are 
spending investigating drug trafficking cases.
    These are controlled deliveries and other drug 
investigations that we work cooperatively with the DEA. Before 
September 11th, Customs had approximately 1,500 of its Customs 
Special Agents cross-designated by the DEA to conduct narcotics 
investigations under Title 21 authority. I have no intention of 
reducing that number.
    We will continue to work effective with the DEA to 
investigate drug traffickers and we will continue our strong 
drug interdiction efforts.
    Beyond that, I might just mention specifically that in 
conjunction with using our air and marine assets, Customs has 
effected, for example, just very recently working with Admiral 
Loy's people, the U.S. Coast Guard, two seizures from go-fast 
boats that were operating in the Caribbean off the coast of 
Puerto Rico.
    If we have just a moment, I have about a 2-minute take I 
would like to play for this committee that shows one of those 
seizures. The two seizures, by the way, total were 2,500 
kilograms of cocaine coming off the coast of Puerto Rico, and 
the arrest of seven individuals.
    Over the past 5 weeks, we have seized approximately 3.900 
kilograms of cocaine. So, what we are seeing, I think, is that 
we are blocking the Mexican border more effectively than we 
ever have, and it is because of the terrorist security threat 
at that border, what we are seeing is the major drug 
trafficking organizations, the Colombians, are going to 
alternative routes. We need to anticipate and prepare and 
respond to that because I think what we are seeing is I could 
pressure both in the Caribbean and in the Eastern Pacific.
    That concludes my statement, Mr. Chairman. If we could take 
a couple of moments, I would like to play this short video of 
the recent interception of a major amount of cocaine off the 
coast of Puerto Rico, with the chairman's permission.
    Mr. Souder. Certainly.
    Mr. Bonner. This is on November 21st and it is one of the 
two seizures, so, it is very recently, within the last 2 weeks. 
This Blackhawk helicopter operated by Customs is now tracking a 
go-fast boat that is loaded with cocaine.
    You will see now that the bad guys, the traffickers, are 
literally dumping out the bales now that the Blackhawk has 
latched on to them. They dumped out bales. That was over 1,000 
kilos of cocaine that came out of that boat.
    You can see on the left this is the Marine Enforcement 
Officers of the Customs Service that are closing in on the go-
fast boat. The bad guys are on the boat on the right. It is 
trying to get them to stop. It is pulling up alongside them. 
They don't seem to want to stop. We actually go across the bow.
    Now, you can see here the traffickers, the smugglers and 
the boat on the bottom of the screen. We were drawing down on 
them. I think they have decided now to stop. We actually 
arrested the six individuals in that boat. Of course, we seized 
the boat. It is being forfeited. And we seized a little over 
1,000 kilograms of cocaine.
    This is another, just closing in on another of the go-fast 
boats, with two of the Customs marine boats that have the 
awnings on them. It is a little more effective when you have 
two boats, actually, Mr. Chairman. It is faster, too. So, the 
traffickers on that boat are being apprehended.
    I think this just graphically demonstrates one thing for 
this committee and that is, that the interdiction efforts and 
the drug enforcement efforts of the Customs Service and the 
Coast Guard and other agencies have not abated. If anything, to 
some degree the heightened level of security at the Customs 
Service has actually resulted in an increase, actually a 
substantial increase in the interdiction of drugs.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bonner follows:]
    [GRAPHIC] [TIFF OMITTED] 82357.009
    
    [GRAPHIC] [TIFF OMITTED] 82357.010
    
    [GRAPHIC] [TIFF OMITTED] 82357.011
    
    [GRAPHIC] [TIFF OMITTED] 82357.012
    
    [GRAPHIC] [TIFF OMITTED] 82357.013
    
    Mr. Souder. Mr. Ziglar.

  STATEMENT OF JAMES W. ZIGLAR, COMMISSIONER, IMMIGRATION AND 
                     NATURALIZATION SERVICE

    Mr. Ziglar. Thank you, Mr. Chairman and members of the 
committee. I wish that Commissioner Bonner had not shown that 
because if my Border Patrol agents who are down on the dusty, 
hot southwest border see these guys out on boats they are going 
to want to come join you.
    Mr. Chairman, I appreciate the opportunity to be here today 
to talk about the impact on the INS of the homeland security 
initiatives that we have had since September 11th. Needless to 
say, September 11th has had a profound effect on everything and 
everybody both in this country and certainly in the government. 
It is no question about it.
    The INS feels a particular burden in light of those events 
because of the missions that we have at the INS. They are 
multi-faceted, as you know. We are the only agency that has the 
legal authority to grant admission or determine admissibility 
of people coming into the United States.
    Of course, given how the terrorists came in, that is a huge 
burden. We have the responsibility for patrolling and 
controlling the border between the ports of entry and we share 
joint responsibility at the ports of entry with Commissioner 
Bonner and his organization.
    We have responsibility for enforcing the immigration laws 
in the interior of the United States. As we know, we have some 
considerable issues in that respect. Then when you add all that 
together and you also add on top of it the responsibility for 
adjustments in status for conferring benefits and for otherwise 
facilitating legal immigration into this country, we feel a 
great burden as a result of September 11th and we felt a great 
burden, of course, even before that.
    No doubt that our attention since September 11th has been 
focused on those events and the outcomes of those events. As 
Commissioner Bonner pointed out, we went to Threat Level One 
almost immediately after the planes hit the World Trade Center 
and the Pentagon. We have been at Threat Level One since that 
time.
    The commissioner explained what that does in terms of the 
level of inspection that we do and I won't go into that. But it 
clearly increases the impact on our resources to be at a Threat 
Level One.
    At the INS, we have taken 1,000 of our 2,000 investigators 
and have devoted them to this investigation. And they continue 
to be devoted to it. In fact, as of yesterday, there were about 
4,000 interviews and investigations that our investigators have 
participated in. So, we have had a huge play, if you will, in 
the investigation itself.
    The Border Patrol hearing as been impacted by this. 
Immediately after September 11th, is the deployed 318 Border 
Patrol Agents to eight different airports around the country 
and got them there actually within 40 hours of the attacks on 
the World Trade Center and the Pentagon, in order to help beef 
up security at the airports.
    We have deployed some additional inspectors to the northern 
border. We have deployed 150 roughly Border Patrol agents to 
the ports of entry. Now Border Patrol agents are not normally 
at the ports of entry, as you know, but we sent them there to 
help facilitate the inspection process because, as Commissioner 
Bonner knows, when you start doing it at the level we are doing 
it, it creates wait times. We have sent Border Patrol Agents to 
try to help with that process.
    We will be deploying, in addition to the 100 or so that we 
have already deployed up to the northern border, we will be 
sending another 100 out there in the very near future. To top 
all of that off, we have the Olympics coming up at which we 
will have a minimum of 200 Border Patrol Agents that we are 
going to be sending out there for security purposes.
    So, the impact on the Border Patrol itself has been rather 
significant. We have been attempting to carry out our normal 
duties and we think we have been doing that reasonably 
successfully given the impacts.
    As Commissioner Bonner pointed out, it is not easy to try 
to do all these things and keep your normal flow of business 
going. But we have been working at it, as well as trying to 
fulfill some Presidential mandates that were given to me as a 
result of my being confirmed by the Senate.
    One of them was to structure a reorganization of the INS. 
Second, it was to reduce the backlogs in our service side of 
our business. We have been working at that.
    The strain on the agency is huge. We have been, like the 
Commissioner, we have been using overtime, reduced leave time, 
canceled leave time, all sorts of things to multiply our forces 
in the field. In fact, as of yesterday, I believe we used about 
125,000 additional overtime hours throughout our system as a 
result of the September 11th attack.
    We also have been deploying, as I mentioned, agents and 
others to different parts of the country to meet certain needs 
and those deployments in and of themselves, of course, create 
strains on the employees when they go away from home for 30 to 
60 days. They stay in a place away from their families. That 
obviously creates a problem in terms of the impact on our 
personnel.
    Recruiting and retention is always a problem. It has become 
even more of a problem for us because of some issues I talked 
about the last time I testified before your subcommittee. The 
Sky Marshal Program has been a particular impact on us. In 
fact, just entering the first Sky Marshal class, roughly 75 
percent of the new entrants were former Border Patrol agents 
that had been recruited.
    So, it is a little tough on us both to recruit and to 
retain folks.
    Then, of course, given the events of September 11th we have 
this constant flow of new initiatives that are being thrown in 
our direction and the need to respond to every new idea for a 
new initiative. We have to respond to them, so that takes up an 
awful lot of time.
    Our approach has been fairly consistent. We recognize that 
we can't do everything like we tried to do before, but we can 
do things in priority orders. Our focus has also been on 
strengthening our core mission. Take those things that we need 
to do, strengthen them and get our mission up to the place that 
it needs to be, while at the same time, trying to stay out of 
what I call the bureaucratic guerilla warfare that goes on any 
time you are in any kind of a government job.
    We are making progress. A couple of weeks ago I introduced 
or announced a restructuring proposal for the INS that would 
take and create two bureaus, a service bureau and an 
enforcement bureau within the INS to more focus our mission and 
to have clear lines and chains of command and hopefully 
strengthen our enforcement side of the business as well as the 
service side of the business. We think that is going to have a 
long-term positive impact.
    The implementation of that restructuring has got to be done 
very carefully with the backdrop of our new responsibilities as 
a result of September 11th. But we think that we can go forward 
without that, without disrupting the efficiency of the 
organization.
    We are continuing our major smuggling cases. Those are very 
important to our interior enforcement operations and I am 
hoping within the next week or two to announce some major 
developments in that area.
    We also have been working with our counterparts in 
immigration in Canada and signed an agreement with them last 
week on some immigration initiatives that we think will help us 
do a better job, not just at the border, but do a better job of 
extending our borders out so that we can stop people before 
they ever get to North America and coming into this country and 
trying to do harm.
    We also are working to enhance our interior enforcement 
operations. Mr. Chairman, as I mentioned to you right before 
this hearing, I would like to use this hearing to make an 
announcement about an initiative that we are starting, 
literally, today.
    As most of the people have seen in the newspapers, there 
has been a lot of discussion about the fact that there are a 
large number of people in this country that we call abscondees. 
They are people who have been in illegal status. They have been 
put into deportation proceedings. They have gone through the 
judicial process. At the end of the judicial process there was 
a deportation order for them to be removed from the country and 
then, as you described it, they jumped bail, they absconded and 
disappeared into the woodwork of the country.
    The number that has been thrown around in the press is 
250,000 of those people. Mr. Chairman, the number is actually 
about 314,000, based upon our analysis yesterday. One of the 
things that I discovered in doing my due diligence is that with 
the exception of some very serious, serious criminal aliens, by 
and large, those people who have absconded and against whom 
warrants have been issued for their arrest, administrative 
arrest for deportation, those names of those people have never 
been entered into the NCIC index of wants and warrants.
    So, if someone is picked up somewhere and a check is done 
of the records, there is no record out there that there is a 
warrant for this person's arrest. So, we have people who may be 
picked up and we never know that a final order of deportation 
is there.
    I have started an initiative to have entered into the NCIC 
wants and warrants index the names of all those individuals. It 
is a big project. It is going to take a while. It is going to 
take some resources. But I think it is important that we do 
this.
    I want to make it really clear that we are not talking here 
about some kind of sweep on illegal aliens. These are people 
who have gone through the judicial process, gone through 
immigration judges and through appeals and have final orders of 
deportation that have been entered against them and they have 
jumped bail or absconded.
    We think that this will send a message that when you come 
to the United States you are expected to stay here on the terms 
that you are admitted on and that coming here and staying in an 
illegal status is not appropriate.
    Mr. Chairman, I'm sorry, I've taken more time than I was 
supposed to. But I just want to let you know that our ability 
to do our job is really limited only by our resources and the 
time it takes to put resources on line.
    Also, we want to make the statement that I'm very pleased 
and I am very thankful to the Congress and to the 
administration for recognizing the resource needs that the INS 
needs and they have been very forthcoming in working with us on 
the budget, on the appropriations, in order for us to be able 
to move this big, old ship down the channel a little bit.
    Again, I just want to say how much we appreciate the 
cooperation of the Congress and the administration.
    Mr. Souder. Thank you, Mr. Ziglar.
    [The prepared statement of Mr. Ziglar follows:]
    [GRAPHIC] [TIFF OMITTED] 82357.014
    
    [GRAPHIC] [TIFF OMITTED] 82357.015
    
    [GRAPHIC] [TIFF OMITTED] 82357.016
    
    [GRAPHIC] [TIFF OMITTED] 82357.017
    
    [GRAPHIC] [TIFF OMITTED] 82357.018
    
    [GRAPHIC] [TIFF OMITTED] 82357.019
    
    [GRAPHIC] [TIFF OMITTED] 82357.020
    
    [GRAPHIC] [TIFF OMITTED] 82357.021
    
    [GRAPHIC] [TIFF OMITTED] 82357.022
    
    [GRAPHIC] [TIFF OMITTED] 82357.023
    
    [GRAPHIC] [TIFF OMITTED] 82357.024
    
    [GRAPHIC] [TIFF OMITTED] 82357.025
    
    [GRAPHIC] [TIFF OMITTED] 82357.026
    
    [GRAPHIC] [TIFF OMITTED] 82357.027
    
    [GRAPHIC] [TIFF OMITTED] 82357.028
    
    [GRAPHIC] [TIFF OMITTED] 82357.029
    
    [GRAPHIC] [TIFF OMITTED] 82357.030
    
    Mr. Souder. Mr. Hutchinson.

 STATEMENT OF ASA HUTCHINSON, ADMINISTRATOR, DRUG ENFORCEMENT 
                             AGENCY

    Mr. Hutchinson. Thank you, Mr. Chairman. I am delighted to 
be here with my colleagues today before you and Ranking Member 
Cummings and Ms. Davis, it is good to appear before your 
committee again.
    I particularly appreciate this committee's leadership on 
the fight against drugs in our country and drawing attention to 
the impact that the events of September 11th may have on this 
effort. Since the inception of the recent national crisis on 
September 11th, the DEA has responded in a number of ways by 
mobilizing resources against the threat of terrorism.
    First of all, the DEA has participated in the Federal Sky 
Marshal Program and has contributed a total of 126 Special 
Agents, representing 3 percent of the agency's investigative 
personnel, to the program. These are all volunteers who are 
deployed on 60-day temporary duty assignments and are drawn 
from a cross-section of the country to minimize any adverse 
impact on our day-to-day operations.
    Second, the El Paso Intelligence Center has supported the 
FBI investigation of the September 11th attacks on the Pentagon 
and the World Trade Center. EPIC has been providing 
intelligence and analytical support to the FBI's Operation 
PENTBOMB, the Department of Defense operation and the Coast 
Guard's Operation Coast Watch.
    To date in support of these operations and other member 
agencies, EPIC personnel have extended over 9,000 man-hours, 
processed over 64,000 queries and generated over 1,200 cables. 
As a result of this effort, EPIC has been to provide in excess 
of 10,000 leads or pieces of supplemental information to 
investigators.
    In addition, the DEA has been engaged in the intelligence 
arena. We have routinely queried our human drug intelligence 
sources, especially those overseas for any potential leads or 
intelligence that may impact upon national security or 
terrorism investigations and certainly have provided any 
information immediately to the FBI who has the lead in it as 
its responsibility.
    In addition, the DEA has participated in the anti-terrorism 
task forces and in each Federal judicial district the DEA has 
designated one agent as a point of contact to the Attorney 
General's Anti-Terrorism Task Force.
    So, while the prevention of additional acts of terror must 
continue to receive the highest level of attention from all of 
the agencies, there remains a focus and a commitment on the 
DEA's central mission of drugs. If we look specifically at the 
impact of September 11th, I think there is some good news in 
the terrible tragedy that occurred in the sense that there has 
become a greater public awareness of the nexus between drugs 
and terrorism and the money that flows to violent groups.
    I appreciate the chairman yesterday being at the DEA, 
participating in a symposium on narco-terrorism and the impact 
that it has on our society today and the serious connection 
that is there. Hopefully, that will increase the public 
awareness of this connection.
    Also as a result of September 11th, I think there is an 
opportunity for our society to enter an era of greater 
responsibility. All of a sudden drugs not only are illegal and 
harmful, but also there is an understanding that there is a 
benefit that goes to extraordinarily violent groups that do 
harm to our society.
    Just as in World War II, I hope that we are able to 
capitalize on this and make serious strikes in reducing drug 
use in our country.
    The second thing that we have seen since September 11th, as 
Commissioner Bonner rightfully pointed out, law enforcement 
presence makes a difference. Immediately after the September 
11th act the traffickers appeared to stop moving the drugs 
through their trafficking routes because of intense pressure 
along the border.
    So, they held off. Then at some point they had to continue. 
As they continued their trafficking, because of the intense 
pressure along the border, the seizures increased dramatically. 
We would also see this from the DEA's perspective inland, 
whereas there was more drugs transported in the air 
transportation routes, that has moved to ground transportation 
routes because of the intense scrutiny of passengers as they go 
through the airports.
    So, there has been a change of patterns. In addition, you 
see whereas the intense pressure in New York City has scared 
away traffickers, to a certain extent of doing their exchanges 
and their first deliveries in the United States in New York 
City. I was in Connecticut. We saw the impact there. Some of 
the trafficking routes have bypassed New York City and moved 
into New Jersey and into Connecticut and some of the outlying 
areas.
    So, the law enforcement presence has made a difference and 
it has been our responsibility to adjust to the new patterns. 
So, law enforcement has to be flexible and to adjust and the 
DEA has taken those steps.
    The third impact of September 11th is what is the focus of 
this hearing, which is the impact on resources and long-term 
planning on organizational structure. Clearly a comprehensive 
review is appropriate and is underway to eliminate any 
duplication of effort so that maximum resources can be devoted 
to public security.
    To the extent possible, the DEA has attempted to integrate 
the homeland security responsibilities and our duties in 
counter terrorism into our existing law enforcement functions, 
so that the enhanced public safety is a dividend of more 
diligent and well-informed counter drug efforts.
    Accordingly, the DEA, in the airports and railway 
interdiction units are on high alert and cognizant of the 
likelihood of encountering members of terrorist cells as they 
transit the country. Clearly law enforcement presence in that 
area as well makes a difference and has resulted in leads and 
hopefully will in the future.
    Regardless of the manner in which drug traffickers chose to 
regroup in response to our new counter terrorism initiatives, 
our single mission drug agents must and will continue to 
provide adequate anti-drug coverage.
    In the long term, I believe that our responsibilities 
overseas will have a greater emphasis and has increased because 
of the instability in Afghanistan. We are laying plans to have 
additional resources in Uzbekistan and in Pakistan to help in 
the interdiction efforts of drugs coming out of Afghanistan. It 
is an unusual opportunity. We have a country that produces 70 
percent of the world's supply of heroin, to be able to go in 
and impact that dramatic source of supply.
    The impact on the United States would be if we can reduce 
that supply in Afghanistan is that it will impact our purity of 
heroin in the United States and the price of heroin in the 
United States, hopefully in a positive fashion.
    Because the DEA is an agency that relies extensively upon 
interagency cooperation, the new responsibilities in counter 
terrorism are nothing new to us. We will continue to maximize 
our cooperation with our State and local counterparts and with 
our Federal partners that are at this table. We operate to a 
large extent with our Federal partners under Memorandums of 
Understanding. If there are any adjustments that are needed in 
those to maximize our organizational structures and 
efficiencies, we are happy to cooperate.
    In conclusion, Mr. Chairman, the DEA fully supports 
Attorney General Ashcroft's initiative and Governor Ridge's 
efforts to restructure our Federal law enforcement assets in a 
manner that best serves public security. As we move decisively 
to coordinate our counter terrorism efforts, we must take 
appropriate actions to make certain that the momentum of our 
counter-drug initiatives is not adversely affected. I 
appreciate the leadership of this committee in that regard. 
Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Hutchinson follows:]
    [GRAPHIC] [TIFF OMITTED] 82357.031
    
    [GRAPHIC] [TIFF OMITTED] 82357.032
    
    [GRAPHIC] [TIFF OMITTED] 82357.033
    
    [GRAPHIC] [TIFF OMITTED] 82357.034
    
    [GRAPHIC] [TIFF OMITTED] 82357.035
    
    Mr. Souder. Mr. Gallagher.

   STATEMENT OF FRANK GALLAGHER, DEPUTY ASSISTANT DIRECTOR, 
      CRIMINAL INVESTIGATIVE DIVISION, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Gallagher. Mr. Chairman and members of the 
subcommittee, thank you very much for the privilege of allowing 
me to testify here today. As you know, on September 11th the 
way we do business changed. It changed for the FBI. It changed 
for all of law enforcement and it changed for all of America.
    Now, we must make some of the changes we experienced 
permanent and develop other changes or other ways of doing 
business and serving the American public if we are to be an 
effective and efficient national law enforcement agency.
    The FBI has jurisdictional responsibility for over 300 
classifications of Federal crimes. Some of them are exclusively 
the jurisdiction of the FBI and some of them are violations 
where we share jurisdiction with other agencies, either 
Federal, State or local agencies.
    Some of these violations which we investigate with shared 
jurisdiction are ones where the other agency doesn't have the 
capacity to shoulder the investigations alone. An example of 
this would be crimes occurring in Indian Country where the 
Bureau of Indian Affairs shares jurisdiction, but they don't 
have the capacity to handle the volume of cases or the required 
expertise for some of the cases.
    Drug violations are also ones which we share with many 
other agencies. However, the way drugs have permeated our 
society and lead to so many other violations and the way they 
are a part and parcel of so many criminal enterprises, our 
jurisdiction is necessary to try to fully investigate and 
dismantle these criminal organizations.
    In 1998, the FBI established a 5-year strategic plan to set 
investigative priorities in line with a tiered structure. Tier 
One comprises those crimes or intelligence problems which 
threaten our national or our economic security.
    Tier Two involves offenses which involve criminal 
enterprises or those which adversely affect our public 
integrity.
    Tier Three includes violations which affect individuals or 
property. In line with this plan, we have increasingly enhanced 
our resources dedicated to the areas of counter-intelligence 
and counter terrorism.
    Now, let me discuss briefly how the recent terrorism 
incidents have affected the resources assigned to the FBI. Our 
budget authorizes the FBI to have 8,883 Special Agents to 
conduct investigations in the field. Now, this does not include 
those assigned as managers or supervisors in field offices, 
those assigned to FBI Headquarters or those assigned to 
international or special assignments.
    Prior to September 11th, 73 percent of them, or 
approximately 6,500 agents were assigned to investigate 
criminal investigative program matters, that is organized 
crime, white collar crime, drugs, violent crimes or civil 
rights violations. A little over 2 percent of these resources 
were assigned to applicant and/or training matters and the 
remaining 25 percent were assigned to counter-intelligence or 
counter terrorism matters.
    Following the terrorism incidents, about 67 percent, or 
more than 4,000 of those agents in the field who previously 
worked criminal investigative matters were diverted to conduct 
investigations related to the PENTBOMB investigation or the 
subsequent anthrax letters or hoax letters.
    Also, agents were diverted to working hate crimes directed 
at individuals of Middle Eastern descent. During the first 2 
weeks after September 11th, all agents, both those working the 
terrorist-related matters as well as those who continued 
working the traditional criminal violations worked on an 
average well over 13 hours a day.
    We are continuing to utilize almost 3,000 agents more than 
we are budgeted for to investigate counter terrorism. 
Presently, our utilization of agent resources is showing a 
gradual return to more normal levels. We are now using about 55 
percent of what previously had been our criminal investigative 
resources on those violations.
    However, with the increased emphasis on the prevention of 
any terrorist act, it is doubtful that we will ever return to 
the same staffing levels for each program which existed prior 
to September 11th. Prior to September 11th the FBI was usually 
involved in about 250 assessments and responses related to 
suspected weapons of mass destruction events each year. During 
the first 3 weeks of October alone, we have had more than 3,300 
of these occurrences which included 2,500 suspected anthrax 
incidents.
    Additionally, 278 hate crime allegations associated with 
the events of September 11th have been investigated. To date, 
35 of our 56 field offices have established joint terrorism 
task forces, most of which existed prior to September 11th.
    The Director has instructed that all of our field offices 
establish a JTTF as soon as possible. The FBI has also 
established a financial review group which is a multi-agency 
task force investigating all funding avenues utilized by the 
terrorist networks.
    In order to effectively address terrorism threats and the 
traditional crime problems which the FBI faces on a long-term 
basis, the Director has developed an internal reorganization 
plan. The first part of this reorganization plan has received 
congressional approval and the FBI is moving forward. The 
initial stages of this reorganization is at the headquarters 
level.
    But in the overall reorganization, there are many factors 
to consider, including the long-term shifting of resources from 
traditional criminal investigative priorities to counter 
terrorism. However, decisions concerning resource allocations 
to the various criminal programs have not been finalized. There 
is an ongoing, comprehensive examination of all of the criminal 
violations which the FBI addresses to assist in this 
reorganization.
    Our continued involvement in multi-agency task forces 
addressing multiple crime problems will be of the utmost 
importance. All of our field offices have established various 
task forces in addition to the joint terrorism task forces 
which designed to address a myriad of traditional crime 
problems.
    These task forces not only enhance the FBI's resources by 
establishing law enforcement links with local, State and other 
Federal agencies, but they enhance the sharing of intelligence 
which crosses those program lines.
    We intend to focus our efforts on significant criminal 
enterprises and the most serious personal and economic crimes 
to address community safety and violations within our 
prosecutive guidelines.
    Mr. Chairman, thank you very much for allowing me to 
testify today. I am happy to answer any questions which you or 
other members of the subcommittee may have.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Gallagher follows:]
    [GRAPHIC] [TIFF OMITTED] 82357.036
    
    [GRAPHIC] [TIFF OMITTED] 82357.037
    
    [GRAPHIC] [TIFF OMITTED] 82357.038
    
    [GRAPHIC] [TIFF OMITTED] 82357.039
    
    [GRAPHIC] [TIFF OMITTED] 82357.040
    
    [GRAPHIC] [TIFF OMITTED] 82357.041
    
    [GRAPHIC] [TIFF OMITTED] 82357.042
    
    Mr. Souder. Before we move to questions, Mr. Gilman, our 
distinguished vice chairman has a brief opening statement.
    Mr. Gilman. Well, thank you, Mr. Chairman. Chairman Souder, 
thank you for arranging this very timely hearing amongst our 
law enforcement agencies. The testimony was excellent.
    Today we will review what the heads of these law 
enforcement agencies have to say about the consuming impact 
that the recent emphasis on homeland security has had on each 
of their departments.
    I will welcome from them what more we can be doing as we 
get into questions with regard to their ability to carry out 
their important responsibilities under the present crisis.
    In addition, we will also be considering the status of any 
long-term planning that is currently being done to assure that 
appropriate agency resources and proper attention is and will 
be continuing to be dedicated to their missions up the road.
    While we are all unified in our resolve to make certain 
that our Nation's homeland security is adequately addressed, to 
stem off any future terrorist attacks it is important that we 
recognize the potential for law enforcement resources to be 
stretched beyond their means. In fact, we are hearing reports 
of resources for other law enforcement missions such as our 
drug interdiction may be diverted to fill the new demand for 
homeland security.
    Accordingly, any discussion on homeland security and the 
impact upon our Nation's law enforcement agencies must include 
a discussion of whether or not the need exists to consolidate 
certain law enforcement functions within the various Federal 
agencies and we hear talk once again about some consolidation.
    It is also important to note that our increased effort of 
homeland security as in some instances helped in our battle 
against illicit drugs, for example, on our southwest border 
where Mexican-American authorities report the drugs are piling 
up on the Mexican side due to our Nation's increased vigilance 
in the securing of our borders after the September 11th 
attacks.
    This example points to what can be accomplished when our 
Nation places its resolve behind the illicit drug battle. We 
commend our DEA for the work they are doing as well as our 
other agencies that expressed their review of what they are 
accomplishing.
    Certainly the demonstration we saw today of the fast boat 
initiative by Customs is another example of what could be done 
with good cooperation between our agencies.
    It is vital that we not ignore the importance of providing 
adequate resources in our current battle against drugs from 
whatever source. It is important, too, that we refrain from the 
temptation to reallocate our anti-drug resources while gaining 
victory after victory against the terrorists, the Taliban and 
Al Qaeda forces.
    Of course, they are major producers and sellers of drug 
substances to finance their terrorist activities.
    Instead, we should use this opportunity to further our 
resolve and to purge our Nation from the drug trafficking that 
comes from the Afghanistan region and to be able to strike 
while the iron is hot.
    Mr. Chairman, these are extremely important issues. We look 
forward to being able to get into a discussion with our 
panelists when we return to questions. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. I am going to yield to Mr. Cummings 
for the first 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you for calling this hearing.
    Mr. Ziglar, I want to just ask you a few things. You were 
saying that 75 percent of the Sky Marshal, I guess it is 
applicants, are from the Border Patrol. Is that what you said?
    Mr. Ziglar. No, Congressman. The first class of Sky 
Marshals that was going through training, in that first class 
approximately 75 percent of them are former Border Patrol 
agents.
    Mr. Cummings. So, I guess that has had a tremendous impact 
on your operation, it would seem logical.
    Mr. Ziglar. Well, it certainly will if we continue to bleed 
that way. We don't know how many Border Patrol agents have 
actually applied for these Sky Marshal positions. My 
recollection is that the total number that has been selected at 
the moment is about 70 or 80 that actually have been selected 
for it. But we have no idea how many of them are in the process 
and just haven't gotten word.
    Mr. Cummings. Your announcement this morning about the 
NCIC, I am just curious as to when you had your budget you 
complimented the Congress and the President on being supportive 
of you with regard to your budget. I am just wondering, was 
that part of the discussion? You sounded as if it was going to 
call for a lot of resources to do that and a lot of effort. Is 
that a part of it, in other words, your budget situation?
    Mr. Ziglar. Well, it is not a line item in the budget, but 
it is part of the interior enforcement operation. Of course, we 
have to prioritize how we want to go about doing our interior 
enforcement. So, it would be out of that part of the budget.
    Mr. Cummings. So, have you made any predictions as to how 
many of these 314,000 folks--and I agree with you, by the way, 
I mean if people have gone through the judicial process and 
they have been ordered to leave the country and they are 
avoiding that, I think we should take all appropriate action to 
address that issue.
    But I was just wondering, you know, what kind of dent do 
you expect or have your people projected with regard to getting 
these folks into the NCIC? You must see some benefit or you 
wouldn't be doing it.
    Mr. Ziglar. Congressman, of course it is a little bit 
difficult to estimate something that you have not used before, 
but making that assumption that all 314,000 are still in the 
country, which may not be a good assumption, some of them may 
have just left on their own and we didn't know that, we guess 
at that time it will be somewhere between 7 and 10 percent a 
year that we will be able to identify, on the high side.
    This is a ramp-up situation. Tomorrow morning they won't 
all be in NCIC. It will take a while. A lot of this is going to 
have to be hand-entered because of the nature of the reports 
that we have. So, it will ramp up over time. But we think when 
it is fully in there that at least at the outset we will 
probably see a 7 to 10 percent identification of those people 
who are in there.
    Mr. Cummings. Do we know whether any of those people who 
were directly involved in the September 11th tragedy would have 
fit into this category, in other words that people who were 
ordered to be deported? I am just curious?
    Mr. Ziglar. Not of the 19, No, sir.
    Mr. Cummings. Mr. Hutchinson, with regard to Afghanistan 
and drugs, we have heard testimony before this body, and I 
think you were here at one of the hearings where they were 
telling us that as far as the war effort is concerned, they did 
not believe at that time, this was a few weeks ago, a lot of 
drug money was used to support the Taliban, Al Qaeda and Bin 
Laden.
    I was just wondering. You know, you were talking about the 
effects of measures that have been taken by the U.S. Government 
since September 11th and I was wondering, with all this bombing 
in Afghanistan, have you seen any impact with regard to crop 
production and drugs coming out of Afghanistan or are you able 
to determine that?
    Mr. Hutchinson. Yes, Congressman, there has been certainly 
an impact. The focus of the efforts of the United States, of 
course, is to get the terrorists and those responsible. But it 
has clearly disrupted and impacted the production, the use of 
the conversion laboratories. It is more difficult initially. 
They were releasing the stockpiles in Afghanistan. They had 
stockpiled up to 60 percent of the opium production each year. 
That was being released and so it was continuing to flood the 
borders.
    It appears that the Afghan farmers are in varying degrees 
replanting. I hope that as we have a post-Taliban circumstances 
in Afghanistan that we will be able to go and impact what is 
happening there now and in the future of that country. Clearly, 
we have a vested interest in the United States there, because 
as I mentioned, in Baltimore it very well will affect the 
heroin supply here, the cost and the purity of it as to what 
actions we are able to take in Afghanistan to reduce the 
supply.
    You mentioned the Taliban, clearly they are funded by drug 
trafficking proceeds to varying degrees. The evidence is very 
clear and there appears to be a growing body of evidence that 
we are still looking at as to the other connections with drug 
trafficking and the other result organizations.
    Mr. Cummings. Just one last question, Mr. Chairman, and I 
want to thank you for your courtesy.
    Mr. Hutchinson, as these forces that have come together to 
form a new government are coming together it seems like slowly 
they are moving toward some kind of government, I mean, do you 
expect our government to have any impact or have any say with 
regard to that new government and the piece of the government 
that addresses drugs?
    I mean there may be some things that we can bring to the 
table about our efforts to address drugs. Since they are 
forming a new government, it seems logical that we might want 
to have some say in that because we don't want to go right back 
to a situation where drugs are used to supply money to attack 
our own country. I was just curious.
    Mr. Hutchinson. Absolutely. We have a great interest in 
working with our international partners to have an influence on 
any post-Taliban government in Afghanistan and hopefully they 
will be amenable to international concerns, not just European 
and here in America, but in addition, the neighboring nations 
of Pakistan, Russia, Uzbekistan are greatly impacted by the 
heroin coming out of Afghanistan.
    So, I think there will be a broad coalition of 
international influence as they develop policy post-Taliban.
    Mr. Cummings. Thank you all very much.
    Mr. Souder. Thank you. As you have heard, we have a series 
of votes. But what I am going to do, because the first one 
always drifts the longest, because we have so many questions, 
I'm going to skip the first one and try to make the two 5-
minutes, so we can make sure we get some of the questions in 
the record.
    I wanted to clarify, too, that the jurisdictional range of 
this subcommittee is extremely broad. Not only do we have 
primary jurisdiction on narcotics, authorizing on the drug czar 
as well as oversight of any area of the Federal Government that 
touches on narcotics, but as the war on drugs broadened, all 
the human services agencies were put under this committee, HHS, 
in addition to Education and have you had.
    Then at the last Congress to give flexibility, because we 
saw when we worked with the borders Commerce was also moved 
under this committee. So, the range of how we approach this is 
pretty broad.
    One of the things we have zeroed in on in the subcommittee 
this year, particularly after September 11th, but we had 
actually agreed to do this with both the U.S.-Canada and U.S.-
Mexico parliamentarian groups was to look at the border in 
particular, which was very related to commerce in the United 
States as well as narcotics as well as immigration.
    What we have learned is that you can't deal with one 
without the others. We were going to proceed with a number of 
hearings before September 11th which clearly now are 
heightened. So, one, some of my first questions I want to 
direct regarding the border issues, knowing that we have had 
the biggest change as the focus on the north border increased 
after September 11th as opposed to the southern border. Some of 
that was already occurring because of Quebec gold and B.C. Bud 
in the drug area.
    Some additional human smuggling was starting to have a 
little bit more focus on the north border. What we are looking 
at in this subcommittee, we have had hearings, field hearings 
in the Boston-Montreal corridor. In Vermont we have had one 
hearing in the Champlain and the New York City--Montreal 
corridor.
    On Monday, we will be in Blaine, WA and Seattle-Vancouver 
corridor. Both those areas have water, Lake Champlain and Puget 
Sound, which are other places you can move. So we have worked 
with the Coast Guard. We also have Border Patrol facilities 
back from the border. We are going to some of the smaller sites 
as well as the larger sites.
    A week ago Monday we were in Ottawa and met with some of 
the legislators. One of the things that each of you are talking 
about and I hope you will accelerate are those efforts to 
coordinate with Canada because some of the diversion of 
resources from the south border to the north border may be able 
to be addressed by some cooperative arrangements with Canada.
    I wanted to ask a couple of questions to start with that. 
Mr. Bonner, I applaud you for your statements that if other 
nations do not give us their airline manifests that they will 
be thoroughly searched, all carry-on and stowed baggage 
immediately rather than waiting because most Americans assumed 
this was already happening.
    Has Canada moved forward on this as well?
    Mr. Bonner. Well, first of all, we have implemented a 
program. The Congress was good enough to pass a law to make it 
mandatory that advanced passenger information be provided to 
Customs by all airlines. We had actually gotten this 
information over the past several years on a voluntary basis 
for about 85 percent of the arriving passenger.
    But now, it is mandatory. As you know, Mr. Chairman, I have 
moved forward promptly to implement that law. We are getting 
virtually all the airlines with the exception of a few now, who 
now are complying with the law which will go into effect, 
actually in a couple of months.
    We have had discussions with the Canadians about advance 
passenger information. I understand from my discussions with my 
counterpart at Canadian Customs and some of the political 
minister level people in Canada that they have enacted 
legislation so that the appropriate agencies of the Canadian 
Government will be getting advance passenger information on 
flights into Canada from outside of Canada.
    We are working right now, as we speak, Mr. Chairman, with 
our Canadian counterparts at both Customs and at the political 
level and with INS and the CIC in Canada to get a situation in 
which we have access of ability to exchange advance passenger 
information so that we can use that information both with 
respect to known terrorists or individuals who are associated 
with terrorist organizations, but also use that information 
more effectively to identify those individuals that need to be 
questioned further, to do some serious targeting of potential 
terrorists that are entering our respective countries.
    So, that is what we are working on with the Canadians which 
is both exchanging, getting a mechanism to exchange the 
information and then working with them on both sides to develop 
a more sophisticated way through targeting and using that 
information effectively to identify suspected terrorists.
    Ultimately, the end objective, if we can do it, would be to 
actually prevent boarding of aircraft by individuals who we do 
not want, who the INS and Customs and the U.S. Government does 
not want to enter the United States or to enter Canada.
    So, these issues, we are making some progress on them. They 
are difficult issues. They certainly have some implications for 
the Canadians that we are working with. We are working through 
them.
    My sense is that we have a very, very high level of 
cooperation and support from our Canadian counterparts, 
including at the very highest political levels of the Canadian 
Government to do this, which is not just with advance passenger 
information, but also advanced manifest information and setting 
up systems so we are in a better position, both of our 
countries are in a better position to prevent terrorists or 
terrorists weapons from entering our respective part of North 
America.
    Mr. Souder. I agree with your assessment that they seem 
very willing. I also think it is important for Americans to 
understand that terrorists go into our country through Canada 
as well. A number of these people are moving back and forth and 
so sharing.
    But I think it is also important in our hemisphere that--I 
understand the need that they have to go through the 
processes--but you have taken direct action with a number of 
other countries in the Middle East in particular immediately 
and yet in Montreal and in Toronto, as you well know through 
your agency at the Port Angeles location, the Customs, a 
valiant lawyer intercepted a person headed for LAX Airport, 
that we are most vulnerable on our immediate borders. Canada 
needs to respond rapidly because there is our biggest trade 
question.
    The second is: How is Mexico working in the manifest with 
our country.
    Mr. Bonner. These are very important things we are working 
on. We need to distinguish two things here. First of all it is 
making sure that we are getting advanced information on 
passengers coming in from Canada into the United States. That 
is one issue that we are concerned about.
    First of all, as you know, Mr. Chairman, the INS and the 
Customs Service actually prescreen passengers in Canada. It is 
one of only three countries in which the U.S. Government, U.S. 
Customs and INS, actually pre-screen passengers who are getting 
on board flights from the seven major international airports in 
Canada to come into the United States. So, we have an 
opportunity to actually prescreen and identify people there.
    I am very confident that the Canadian Government will be 
providing us with advanced passenger information on flights 
into the United States.
    There is a second issue though, and this goes to something 
that Commissioner Ziglar was talking about. That is, how do we 
push out our border and also provide better protection and 
security against the terrorist threat? There what we want to do 
is, now that we are getting on a mandatory basis from all of 
the airlines that are flying into the United States from 
outside, from Europe, from the Middle East and from Asia, we 
are getting that information. The Canadians are getting that 
information and we are working with them to provide for a 
better, broader security for both of our countries to exchange 
that information. That is a work in progress, not done yet.
    We have also been meeting, I have met with the Mexican 
Finance Minister and the head of Mexican Customs similarly to 
develop the mechanisms where we are developing a mechanism to 
share information from them. Because we certainly want to know 
who is flying into Mexico because of the ease of smuggling 
individuals across the border, much less weapons of terror 
across the southwest border.
    We want to have that information and be able to share our 
information with the Mexican Government and get from them 
information as to who is arriving in the major international 
airports in Mexico because we want to be able to run them 
against law enforcement data bases in the United States.
    We also want to be able to do some reasonably sophisticated 
targeting analysis to know who is in that zone as well. The 
preliminary discussions are certainly encouraging, but we have 
a ways to go with the Government of Mexico to develop the 
actual exchange mechanism that will be needed.
    Mr. Souder. The subcommittee will recess for 10 minutes.
    [Recess.]
    Mr. Souder. The subcommittee is reconvened. Mr. Ziglar has 
to leave at 11:30. If others have particular engagements, if 
you can let me know, too. I know at least a few of the Members 
are coming back and will submit some questions in writing. I 
have quite a few, partly for the record today and some for our 
border report that we plan to be doing and for other ongoing 
hearings.
    I want to suggest some other things that we have learned in 
our process of our hearings and our meetings with the Canadian 
parliamentarians and in talking to other members. I encourage 
you each to look at this. We are going to be pursuing this as 
we move through, at least the start of next year.
    One thing is, and it was suggested actually in a couple of 
your testimonies of where, at least in our hemisphere where we 
might be able to do joint operations, to try to figure out how 
to balance the different missions. In other words, we clearly 
heard the FBI has had an extraordinary diversion of resources 
over to anti-terrorism demanded by the American people, at 
least in the short term.
    All of you have outlined some of those ways. So, we have to 
look for some of the new efficiencies. Among those that have 
been alluded to here and I would encourage to expand, I talked 
to Chairman Wolfe about this as well, in some of the less 
prominent border crossings where we have had in previous times 
maybe one person, it could be an INS person, it could be a 
Customs person, and then only for part of the day.
    Now, clearly, we are doubling up. We are trying to keep 
these posts open 24 hours. It is putting a strain on resources 
for very low traffic compared to, say, Buffalo and Detroit. To 
the degree we could explore, as we bring the laws similar to 
each other on immigration and on a number of the other things, 
which is why we are pushing Canada so hard, and if we can do 
this with Mexico and be certain of some of the security at 
their borders, we could pursue it there, too, where there would 
only be one point for both countries and the staffing could 
even be alternated because we would have to figure out a way to 
do this cheaper vis-a-vis the return.
    Another point, to the degree you can pre-clear on the 
Canadian side they may have more land. For example, the 
Ambassador Bridge which carries more trade than all of the 
U.S.-Japan trade in the rest of the Nation, we have a potential 
that as we look at new truck monitoring places, can some of 
that be put on the Canadian side if we don't have the room on 
the American side.
    Because we are jamming up the bridges for miles going back 
and the border crossings for miles if we can't figure out how 
to do the clearances, not only for terrorism, but for 
increasing pressures on narcotics, immigration and other types 
of things.
    To the degree we can get some commonality in laws at the 
border, we need to look at creative ways to do that. All of the 
agencies are working excellently. We visited a couple of places 
already and talked about some with the Royal Canadian Mounted 
Police. The joint sharing on the northern border and the New 
York-Vermont area there is actually an outpost where they are 
shared. I hope we have more of those.
    If I could ask another specific question of Mr. Bonner 
here, the NEXUS system at Sarnia and also Port Huron and also 
some up at Blaine was moving ahead. It is a fast pass system. 
We have also experimented with that in San Jacinto under a 
different name, which is the other big border crossing.
    It was being tested at Port Huron and since Customs went on 
Level One alert, it means that both the southern border 
counterpart sentry and NEXUS was suspended. It has been nearly 
3 months. Clearly, the terrorist alerts, we never get one off 
but then we get another one. We have another one on right now.
    It is not clear when this is going to change. At what point 
do you think the fast pass system will allow the frequent 
border crosses to work again and what is the status of this if 
we don't get off these terrorist alerts? Clearly that would 
take care of a high percentage of the backups.
    In Detroit, one story is reporting 1,400 nurses and my 
understanding was that there were 1,100 nurses who go back and 
forth and the Detroit hospitals are having a problem. We have 
been talking with Congresswoman Kilpatrick from Detroit and 
Susan Whalen on the Windsor side, the parliamentarian. This is 
a huge problem, the nursing, the trade, the trucks, some of the 
trucks go back and forth 17 times a day.
    In Indiana some of our plants are having to shut down or 
slow down because the parts go over to be assembled here. They 
come back. They get assembled another way and they go back 
again. Clearly, the NEXUS and Sentry things are the best way to 
clear out the regular traffic so we can zero in on the high-
risk traffic.
    Mr. Bonner. First of all, if I could just start off by 
talking about wait times at the border just for a moment, 
because I think there is some misconception with respect to 
what the wait times are.
    Right after September 11th when we went to Level One alert, 
very shortly thereafter on September 11th, 12th, 13th and 14th 
we saw 10 to 12 hour wait times at Detroit, at the Ambassador 
Bridge, at Port Huron, at the bridges over to Buffalo.
    It clearly was having an impact, particularly on the auto 
manufacturers and U.S. industry that relies on a just-in-time 
inventory system in terms of being able to get parts in a 
timely way.
    We did take some immediate measures that first week working 
with the automobile manufacturers, working with INS, developing 
some initiatives that were opening more commercial lanes and 
keeping them staffed longer. We did get National Guard 
assistance from Governor Engler, which I requested and he 
provided promptly, and taking other initiatives.
    We did reduce the wait times. By September 17th, by the 
next Monday or Tuesday, those wait times were down to around 
pre-September 11th levels and they have maintained a very high 
level of security and at the same time have been able to get 
the trucks across the border and by and large the passenger 
traffic across the northern border.
    Mr. Souder. Mr. Bonner, that is because there has been a 30 
percent drop in commerce.
    Mr. Bonner. Mr. Chairman, the commerce actually is back to 
the levels it was, but the passenger traffic, the commuter 
traffic and the tourist traffic, the POV, the privately owned 
vehicles, that is at about 60 to 70 percent of where it was 
before September 11th.
    So, part of the reason, you are absolutely right, at that 
time we are able to get the wait times down is that there still 
is a lot of passenger traffic that is not coming across that 
border. If tomorrow we went back to full passenger traffic 
across the Ambassador Bridge and the Windsor tunnel and Port 
Huron, we would probably be right back where we are. So, there 
is a definite crunch there. I don't want to say there isn't.
    But the first thing we have to understand is that the wait 
times have been substantially reduced. I am not saying they are 
acceptable, but they have been substantially reduced. There is 
still a significant decline in passenger vehicle traffic across 
the major ports on the northern border and you have significant 
wait times at San Jacinto and in Texas and Arizona, 
particularly for passenger traffic, so there is impact for 
being at Level One alert. I am just saying that there have been 
some steps taken.
    Part of that, it seems to me, should include, where we can, 
maintaining both security and maintaining the flow of trade 
across our respective border with Canada and frankly Mexico. 
That is the twin objective here. We have to maintain the 
security level, but at the same time make sure that there is a 
smooth flow of commerce and passenger vehicles.
    Part of that, actually, I think, is reinstituting, if we 
can get appropriate security protection, reinstituting programs 
like NEXUS at Port Huron and Sarnia and the Sentry Program, 
which is a similar program down at San Jacinto.
    As you know, those fast commuter lane programs were, for 
security reasons, they were terminated on September 11th and 
that remains the case today. With INS, actually, we are having 
discussions as to the precise security levels we would need for 
purposes of reopening NEXUS and other commuter lane programs. I 
do expect that we are going to be taking that back up with our 
partners in Canada--we have some discussions--probably 
reasonably soon.
    We have to make sure if we are resurrecting these programs 
that they have the level of security that is truly required to 
protect against the terrorist threat.
    Mr. Souder. Mr. Ziglar, before you go, could you address 
that also on the NEXUS and Sentry and also any reaction you 
might have to where we might look on these smaller walk-across 
types of crossings where we might be able to do something 
jointly with Customs and Immigration?
    Mr. Ziglar. Mr. Chairman, with respect to NEXUS, I think 
Robb hearings pretty much said it all. We certainly are in 
agreement that we want to reopen NEXUS. We are discussing it 
with our Canadian counterparts. There are two or three issues 
that we need to resolve with them.
    But I feel very comfortable that even in a Threat Level One 
environment that we can still redeploy the NEXUS system with 
certain safeguards associated with it. I think we are in 
agreement on that, aren't we, Robb?
    Mr. Bonner. I think so.
    Mr. Ziglar. With respect to some of these small ports where 
we now have people there 24 hours a day, one of the things that 
people don't understand is that it doesn't mean that we are 
keeping those ports open 24 hours a day. It simply means that 
we have people there 24 hours a day to guard the place so there 
is not passage.
    An alternative to having this situation where you have 
people there is to harden those ports, to make it literally 
physically impossible to pass them as opposed to having a human 
presence there. I think you can harden those during those 
periods of time when the port is not going to be open anyway, 
as an alternative.
    Now, certainly working with the Canadians, and like we 
talked about earlier, they are extremely cooperative on a lot 
of issues now, I think we probably could work out an 
arrangement like that. But there are some issues that are very 
sensitive with respect to having one or the other presence on 
the side of the border.
    For example, their gun laws are very different than ours. 
Having our agents on their side of the border creates some 
problems for them. These are things that we have to work out. 
But the idea that we were not working with the Canadians before 
September 11th is one I sure want to dispel because there are a 
number of things that we have been doing with the Canadians 
over a number of years between the Canadian Immigration and 
INS, Customs and their Customs and all four of us together.
    The IBETS teams for example, the joint passenger analysis 
units which we are going to start expanding. For example, we 
have Immigration Control officers overseas where we work 
together with them. This is kind of an immigration thing, but 
it helps Customs. We are going to expand the number of 
Immigration Control officers at airports and seaports overseas 
so that we can interdict people over there. We are going to do 
this jointly and we are going to have joint training of 
airlines.
    So, the Canadians and the Americans or the United States 
folks, they are Americans, too, North America, they have really 
been very cooperative and we are finding a very good 
relationship. I think there is a much broader strategy that 
Governor Ridge is putting together, the things that Robb has 
done with Customers and what we have done with our Immigration 
folks just in the last few weeks fit together into a bigger 
matrix that Governor Ridge is putting together.
    So, I think you are going to see some very promising 
cooperative efforts on both sides of the border.
    Mr. Souder. With the costs of the new equipment to do the 
screening, if we start trying to look for anthrax, we look for 
bombs, we look for an addition to whether we try to get a 
fingerprint or eye technology for illegals, the truck port 
equipment is going to be so high, to be able to also get that 
equipment for drug-screening and those types of things, it is 
not clear that we can duplicate facilities on both sides.
    The degree that we can cross-train not only among our 
agents but among them, if you are going in one direction you 
are looking for this and going in the other direction you are 
looking for that, and even different regions. In Vermont they 
were looking for smuggling of cheese because those products are 
a huge issue in Vermont.
    Cuban cigars are obviously something that comes across the 
other direction to us. Those types of things, I think we could 
try to deal with those. Mr. Ziglar.
    Mr. Ziglar. Mr. Chairman, I would just make one comment on 
that. Certainly on small customer items where we have joint 
jurisdiction at the border, the cost of that equipment is 
something that we all have to share. But when you get to that 
cargo and that heavy stuff, that is out of Robb's budget.
    Thank you, Mr. Chairman. I am very pleased to be here. I 
apologize for having to leave.
    Mr. Bonner. I would just add, Mr. Chairman, if I could that 
we are working with Governor Ridge in terms of some of the very 
proposals that you are talking about. I think the Governor 
actually plans to go up to Ottawa perhaps next week. We hope to 
make some real progress on some of these issues with our 
Canadian partners.
    Mr. Souder. Mr. Owens, did you want to ask any questions?
    Mr. Owens. I'm sorry I was delayed. I wanted to mention to 
Mr. Ziglar, I just wanted to comment in terms of the large 
number of immigrants I represent in my Congressional district 
in New York. I particularly wanted Mr. Ziglar to hear it, so it 
can go on the record. I have a large Caribbean community in my 
district in New York and I have a large Pakistani community, 
much smaller than the Caribbean community. But I am concerned 
about both groups and about the general profiling of 
immigrants.
    I am always against profiling and generalizations about any 
category of people. But being in the real world I know that 
some profiling, since you have limited resources, is going to 
take place. But in the process of doing that, I think the 
record should clearly show that throughout the history of the 
United States, two world wars, Vietnam, Korea, we have never 
had a situation where any people of Caribbean descent have been 
caught up in any espionage in any way been terrorists. There is 
just no history whatsoever there. In fact, the largest 
percentage of people now being recruited for the U.S. Armed 
Services in New York comes out of the immigrant Caribbean 
community. People are going into the armed services.
    To have a blanket suspicion of immigrants and blanket 
policies being applied so that a young Jamaican student who has 
been admitted to college already and they are giving her a 
scholarship, we had a difficult time trying to get her into the 
country because of the tightened restrictions and the general 
atmosphere, which is anti-immigrant.
    The case of the Pakistanis is most serious because they are 
Muslims and profiling against Muslims results in ridiculous 
kinds of situations where there was FBI sweeps of certain parts 
of the Pakistani community. As many as 200 people were rounded 
up in the New York area who were Pakistanis. Not a single one 
has been identified by the FBI as having any connection with 
terrorists.
    However, quite a number had problems with their visas. They 
had stayed too long or had various problems. They were being 
held by INS for some reason, some held as long as 3 or 4 weeks. 
One man died in custody.
    I just think that kind of treatment and assumption that all 
Muslims must be treated the same way, and then the failure to 
at least exercise discretion, as the Immigration Services 
Director has discretion if people are found to overstay their 
visas, they don't have to hold them in detention.
    There are ways. They have been caught and they are ready to 
go home. There are many ways we would go with that in the past 
in terms of letting them go home or post bond or whatever. The 
atmosphere was such that nobody wanted to be reasonable about 
it. So they were put in jails, contracting with the county in 
New Jersey and treated very badly.
    Following that they even arrested some women and as of last 
week they even detained some women without giving us a good 
explanation for it.
    So, I hope we will keep our perspective. There are some 
kinds of ridiculous things that are happening as we label all 
immigrants as being possible enemies.
    I don't like the fact that in the Airport Security Bill 
that we passed we made it a condition that any person who 
becomes an employee of the Federal Government under that bill 
has to be a citizen. Before, in the earlier draft, it said you 
have to be a citizen or permanent resident for 5 years. When 
the final bill was passed they have to be a citizen.
    To say that anybody who works in the airport security 
operation has to be a citizen while at the same time we are 
accepting large numbers of people into the armed services of 
the United States who are not citizens, you only have to become 
a permanent resident to become a part of the U.S. Armed 
Services. We are going to send people off to fight for us and 
be part of our armed services who are not citizens and yet we 
cannot allow people who are here and permanent residents to 
take the airport security jobs.
    I think that is part of a manifestation of a spirit, an 
anti-immigrant spirit that we should try to counteract. Also, 
at all times remember, certainly in this hemisphere, we are 
partners in this hemisphere that have always been there for us, 
all the Caribbean countries, most South American countries.
    Those immigrants and their countries certainly deserve some 
kind of special consideration in terms of hemisphere 
partnership and I hope we will bear that in mind. Thank you.
    Mr. Souder. Thank you. Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I regret I had to be 
in another meeting as well.
    Director Hutchinson, we heard quite a bit about how much 
heroin had been warehoused by the Afghanis and we have talked 
in the Defense Department about trying to eliminate the 
warehouse. Did we do any good, do you know, in trying to get 
rid of all the inventory they had piled up?
    Mr. Hutchinson. Of course, I think some of the inventory, a 
significant part of the inventory was released of their own 
will to sell it. In regard to our operations, I would not want 
to comment in this forum about what the military may or may not 
be targeting. But I want to assure you that at their request, 
we do have DEA personnel there in Tampa working with them on a 
day-to-day basis as to sharing with them the intelligence that 
we gather on locations and other information that might be 
helpful to their operation.
    So, as the military carries out additional responsibilities 
in Afghanistan and as we take care of the terrorism issue, I 
certainly hope that the issues you raised will be addressed.
    Mr. Gilman. Well, I appreciate that. I know they neatly 
stack their inventory close to a mosque for protection 
purposes. I hope you can get that taken care of as well.
    Speaking about Afghanistan, since we are going to have an 
opportunity now to be in there, I hope that we can encourage 
some substitute crops throughout the growing area as an 
alternative to the production they had in the North and also in 
the South.
    Mr. Hutchinson. You are absolutely correct, Congressman 
Gilman, that has to be a part of any long-term strategy, very 
similar to crop-substitution programs that you have been an 
advocate for in South America. Certainly the international 
community needs to support that in Afghanistan.
    We are in discussions with the State Department and I know 
that these plans are being laid out for what we need to do in 
Afghanistan later on.
    Mr. Gilman. That is encouraging to hear that. Since we will 
have an opportunity to do some important things in Afghanistan, 
this is a great opportunity for us to try to get rid of that 
heroin crop that has been plaguing all of our nations.
    Commissioner Bonner, your organization has been doing 
outstanding work. How are we doing controlling the border with 
Canada and the New York State border there where we have the 
Mohawk Reservations along the border and which become almost 
safe harbor for anyone getting on the reservation. Have we 
worked out anything with regard to that?
    Mr. Bonner. I know, Mr. Gilman, that the whole issue of 
security at our northern border has been one that has obviously 
consumed a lot of my time since being sworn in as Commissioner 
a little over 2 months ago. I think we need to do a number of 
things to better secure our northern border. One of them, of 
course, we have been talking about which is working with our 
Canadian partners in terms of ratcheting up the kind of 
information exchange and sharing and benchmarking our own 
security measures.
    One of the things we need to do, I think, at least one of 
the things I am thinking of, is making sure that we have, with 
respect to the low volume ports of entry, that we have some 
ability to harden those ports of entry and secure them so they 
don't have to be staffed 24 hours a day.
    Then we need to be concerned with what I would call the 
``between ports of entry'' issue, which, by the way, is 
primarily a responsibility, as you know, Mr. Gilman, of the 
Border Patrol. But we need to have some capability of doing 
that.
    One thing that we might look at in trying to leverage 
limited resources of the Customs Service and the INS and 
perhaps have the Canadians join in this, but it is to develop 
joint response teams. In other words you would have some 
monitoring of both between ports of entry, places like the 
Mohawk Reservation, essentially unofficial road crossings from 
the Canadian border, particularly upstate New York, Vermont and 
in through Maine and that we would have some joint response 
capability by a response team that would be made up of 
perhaps--I am just speaking now, this is not certainly any 
official position of the administration, but could be joint 
teams made up of perhaps Border Patrol, Customs agents, State 
and local law enforcement, so that we would have some response 
capability.
    I think there actually is some chance that we would get the 
Canadians actually to participate in this. It is kind of the 
IBET model that we used in British Colombia that we set up with 
the Royal Canadian Mounted Police, Customs and INS using that 
model, so that we are also leveraging the resources of our 
Canadian counterparts and we have some sort of response 
capability that would be sensoring, monitoring and response 
capability to the intrusion of terrorists or individuals who 
are bringing in terrorist weapons or attempting to bring 
terrorist weapons into the United States. So that would include 
the Mohawk Reservation, although that is a very special issue 
because it is a reservation.
    Mr. Gilman. Can we do anything by some agreement with the 
Mohawks for anyone coming on to their reservation?
    Mr. Bonner. I think one of the things that we have done, as 
you know on the southern border we also have a reservation 
issue. We actually have special enforcement officers of the 
Customs Service that are Indians. They do one hell of a job on 
the southern border.
    Mr. Gilman. That could be very helpful.
    Mr. Bonner. Taking that model and seeing if we can't do 
that on the northern border would be a possibility.
    Mr. Gilman. I hope you will explore that.
    Mr. Bonner. I will, sir.
    Mr. Gilman. Let me ask our good Admiral Loy, with regard to 
our Coast Guard, I have been hearing some talk that the budget 
has been cut back quite a bit. Can you tell us about where you 
stand on your request in the budget process? Are you being 
taken care of or not being taken care of?
    Admiral Loy. Sir, I can say that in the Transportation Bill 
just passed, the President's request was granted by the 
Congress with respect to the normal appropriation for the year. 
But, of course, that was all pre-September 11th thinking, as 
you know, in terms of the numbers.
    Mr. Gilman. So you are still short of funds?
    Admiral Loy. The supplemental is the key to success for us 
for the rest of 2002. Unfortunately, on the House action side 
of the President's requested supplemental, we were cut about 
$60 million.
    We hope to be able to recover that by the time the Senate 
is done acting and we find our way through conference. But that 
is a significant challenge for us at this particular point. We 
would like to think that the Congress would be able to support 
the President's requested level for us in the supplemental.
    Mr. Gilman. It is $60 million extra?
    Admiral Loy. That was the cut on the House side as the bill 
went forward attached to the DOD Appropriations bill.
    Mr. Gilman. Mr. Gallagher, with regard to the FBI, there is 
the article today in the Washington Post describing massive 
redeployment of FBI agents away from drug enforcement, 
investigation of street crimes, bank problems. Are we 
neglecting those areas?
    Mr. Gallagher. We are responding to the events of September 
11th the same way that we have to other incidents, although 
this is a lot larger than the ones we have had in the past. 
When we had the Oklahoma City bombing, in that area we did the 
same thing where we diverted resources from all of our other 
programs to address that.
    As I mentioned in my statement, our resources are slowly 
coming back to where we are working on the traditional criminal 
violations. We are back at about 55 percent of where we were 
pre-September 11th and working the traditional criminal 
violations.
    One of the things that we are doing is that agents have 
been working a lot longer and a lot more hours of each day and 
more days during the week to try to make sure that certainly 
the most significant cases that we have are continuing to move 
forward.
    Those that are ready for prosecution will continue being 
prosecuted. Those cases that we are working in conjunction with 
other partners, where we can we have tried to continue and in 
some areas we have had to pull people away from certain task 
forces or cut back some of our commitments to those task 
forces.
    One of the things that the Director has been very clear on 
is that he wants to ensure that we continue our commitment to 
our partners, whether they be other Federal, State or local 
partners in ensuring our cooperation with them.
    Mr. Gilman. So that when you reassign your agents there is 
a local agency that moves in and takes over so that there is 
not a vacuum?
    Mr. Gallagher. It depends on what you are talking about, 
sir. If you are talking about bank robberies, for example, if 
we don't respond to a bank robbery in most areas, there is 
still the local police who respond to that bank robbery. It is 
a question of who has what capability. Certainly in the smaller 
or more rural locales, our assistance is a lot more important 
to them in responding to something like bank robberies than it 
would be in New York City where they have thousands of police 
officers who can respond to bank robberies.
    It will vary across the country as to what we are doing and 
where we have pulled resources from. Generally speaking, we are 
still trying to respond to the most violent of crimes and the 
biggest organized crime and drug cases and white collar crime 
cases that we have going right now.
    Mr. Gilman. That is reassuring. I want to thank our agency 
heads who are here, the Admiral, the Directors and 
Commissioners for the good work that you are doing. I hope you 
will keep our committee informed if there is any shortage of 
vital funds so that we can explore that.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you. Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Mr. Gallagher, I just want to followup on some of Mr. 
Gilman's questions, the last few questions that he was asking. 
We all were provided with a copy of a Washington Post article 
dated today. I'm sure you have seen it, ``FBI's Focus on 
Terrorism Sidelines Other Categories of Crime.'' Are you 
familiar with that article?
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 82357.043
    
    Mr. Gallagher. I have seen it since I have been here this 
morning, sir.
    Mr. Cummings. It seems to be a relatively well-balanced 
article where they try to give both sides of the situation. One 
of the things that happened in Baltimore, we have a very high 
murder rate. We have been bringing it down steadily.
    Since September 11th the mayor had to pull resources, being 
so close to Washington, pull resources to address this is whole 
September 11th tragedy and the threats coming in. What we have 
noticed is that our murder rate has gone up steadily.
    It is the theory of some people that even if it is only in 
the minds of the criminal folk, they believe that resources are 
being shifted to deal with this, because everything they see on 
the news is, you know, policemen assigned to the port and 
policemen assigned to this and that, they believe that they can 
now commit their crimes and might be able to avoid punishment 
and being caught.
    I guess the thing that concerns me and I am sure it 
concerns you, we don't even want to put that idea out there, 
that folks can get away with something because we are going 
through this process.
    That leads me to the question of, you know, with regard to 
resources, the President has said, and I think the country 
agrees with him, that this is a long-term effort. This is not 
like the situation that happened in Oklahoma, although 
extremely tragic, you kind of put a box around it and say, 
``This is it.''
    Here, you know we are getting these threats. We just got 
one the other day. I am just wondering, do you feel that you 
all have the necessary resources for this ongoing effort? 
Because some people in your shop, although you are back to the 
55 percent point, I think you said, there are some people who 
have to be able to respond and we are going to continue to have 
these incidents or threats or whatever, but they have to be on 
high alert almost 24/7.
    So, I am just wondering, do you feel that you have the 
resources that you need to address the problems as the 
President has laid them out?
    Mr. Gallagher. Well, the 2002 budget was just approved for 
us and we also, I think, received a few additional resources as 
a result of the counter terrorism supplemental legislation. But 
insofar as our overall picture as to whether or not we are 
going to need additional resources, I am not trying to duck 
your question, Congressman, but we are in the process of doing 
this complete and comprehensive analysis of what we are going 
to be doing in the future.
    I think it might be premature for me to try to say right 
now specifically what we think we might need in the future 
until the Director has had an opportunity to fully evaluate 
these facts.
    Mr. Cummings. Well, I appreciate that. One of the reasons 
why we are holding this hearing, I think, is that we had some 
local folks who came in. Administrator Hutchinson was there. 
They talked about, and these are local folks, who were talking 
about how they were being stretched and they didn't have the 
resources that they needed and all that kind of thing. At the 
same time, you said it and this article also says that what you 
are doing is relying on local people.
    At some point, something has to give. Sadly, in Baltimore, 
for example, we have a situation where we have already broken 
our budget and we don't know where the money is going to come 
from. There is an article in the Sun Paper today saying we were 
going to get some $56 million for the State. Well, in Baltimore 
City we are probably about $15 or $20 million over where we are 
supposed to be.
    So, I guess the question becomes, you know, where does it 
give? If these guys are saying they are stretched and you are 
stretched, and I don't know about Mr. Hutchinson, they refer to 
his agency in this article, they used an example that when 
there are problems maybe in your area that the DEA kind of 
chips in and you all kind of work together.
    But at some point, it is like a balloon and you keep 
putting air in it and you keep putting air in it and something 
is going to burst. My local people are crying and begging for 
resources. That is why I ask these questions. I am just 
concerned.
    This subcommittee has the mission of addressing the drug 
problem, but I don't want the folks in Baltimore, the drug 
dealers, to get the impression that the FBI, the DEA, Baltimore 
City Police, Maryland State Police are so busy dealing with, 
and rightfully so, dealing with the terrorism thing that they 
can then get away with their thing.
    Then the question is: have we accomplished much with regard 
to our domestic statistic? That really concerns me. If it were 
not for this situation like I said where I saw, I mean I 
actually see this every day, our murder rate is going steadily 
up. The more we talked about terrorism, the more the murder 
rate went up. Now, it looks like we are going--we got it below 
300 a year or so ago. It looks like we may hit 300 or go above.
    Maybe I'm just frustrated, but I just wanted you to hear 
that because I think there are jurisdictions all over the 
country that are saying the same thing. We want to cooperate. 
We want to be patriotic. We want to be supportive of our 
President. But, at the same time, we also need resources. So, 
when you say you are leaning on them, I am trying to figure out 
what do they have to prop themselves up so that when you are 
leaning on them in your time of stress, how do they even 
survive?
    You may want to address that Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Cummings. You are correct, 
we want to send exactly the right signal to the traffickers 
that there is not any let down in our investigations and 
commitment to the broad arena of law enforcement. The FBI is 
doing an extraordinary job in terms of committing the resources 
where they need to be. I know that in many instances they are 
able to come back to the task force and the counter-narcotics 
mission, but they are clearly stretched thin.
    In reference to DEA, we are focused, we are a single-
mission agency and we are focused on our counter-narcotics 
mission. In every instance that we can we want to work closely 
with the FBI and our local law enforcement to make sure that 
there is not any slack.
    I think that Director Mueller has indicated under the 
Attorney General's guidance a willingness to look at it. My 
colleague here indicates that they are in the process of it. 
So, I would agree that it is really premature for either the 
DEA or the FBI to jump in the middle of that subject while we 
are waiting for that review to be completed.
    Mr. Souder. Thank you. I just have a few more questions, 
but I think part of what we are trying to do with this hearing, 
and it is a delicate balance, is to acknowledge that there is a 
confusion, too, among the American people when we say we are 
diverting resources over to fight terrorism, where did those 
resources come from.
    Clearly your agents weren't just sitting home doing 
nothing. We don't want to give that impression either, that we 
have a whole bunch of excess agents that we can all of a sudden 
put over to terrorism.
    Our difficult political problem is how to work out these 
priorities with your guidance without having what we are seeing 
happen. That is, people are dying in the streets of drugs and 
we are chasing anthrax, which could be a problem. We have six 
deaths there where the murder rate in 1 month in Philadelphia 
went up 50 percent after September 11th because people were 
diverted over to chasing anthrax scares and among other things, 
and their Police Chief and others are complaining about it.
    It is happening in city after city where our fears get 
heightened and then we are going to come back. This 
subcommittee now has jurisdiction over HHS. When I was on a 
different subcommittee here as vice chairman we did seven 
hearings on health care fraud.
    Obviously, if most of the FBI is being diverted over or 
many of the FBI agents are being diverted over the counter 
terrorism, what happens to health care fraud?
    Next year we are likely to be in a panic about the economy, 
bluntly put, in this Congress if we don't have some sort of 
economic recovery. Then we are going to be saying what are we 
doing about Social Security? What are we doing about commerce 
on the borders? What are we doing about this or that? We will 
be calling you in here saying, ``How come you diverted all your 
people over there and the fisheries are falling apart?''
    We have illegal goods in transit coming across and 
different immigrants. I want to finish with just a few specific 
questions. That is what we are trying to get it. It shouldn't 
give anybody who is doing illegal activities the idea, and we 
are going to find some synergism, but we are going to have to 
figure out whether or not it works to have it consolidated 
among borders, whether to eliminate some of the duplication we 
see among agencies.
    We can't have everybody just spend more time in joint 
agency task force meetings because then everybody is in 
meetings instead of out on the street.
    Admiral Loy, I wanted to get into a couple of specifics on 
the Coast Guard. Without additional supplemental, is it true 
that you will have to work on a 15 percent reduction in the 
2002 budget?
    Admiral Loy. No, sir. There is a specific line item in the 
2002 normal appropriations that called for a 15 percent 
capability reduction for the organization for fiscal year 2002. 
The $60 million I spoke of just a minute ago in answer to Mr. 
Gilman's question is a recovery of that 15 percent capability 
across the whole scope of the organization's wherewithal to do 
not only counter terrorism, but all the other things we are 
responsible for as well.
    Mr. Souder. Let me ask you specific example. Is it true 
that Navy has loaned the Coast Guard six coastal patrol boats 
and that the Florida National Guard is protecting two Florida 
seaports because you don't have the resources there? How long 
can that continue?
    Admiral Loy. Sir, I wouldn't make quite the immediate cause 
and effect there. Let me answer the question this way: We have 
been working very hard with Governor Ridge's office to develop 
a maritime security game plan as a piece of the total border 
security game plan.
    I believe that to be an all-hands evolution, sir. This is 
not where the Coast Guard, on the stewardship of the American 
taxpayer is going to be all things to all people in all of the 
seaports of the United States.
    So, part of our challenge, as we have developed this 
maritime security game plan, is to broadcast that all-hands 
evolution notion. One of the first calls I got on September 
11th or 12th was from Admiral Clark, the Chief of Naval 
Operations, making certain that I understood that he understood 
the national fleet policy that we have built over the last 
several years is a two-way street.
    When it is appropriate for me to send things and 
competencies and expertise to him for his work over there, it 
is equally important where he has the wherewithal, like patrol 
craft, like naval coastal warfare kinds of assets, that if I 
need them in the harbor defense seaport security world of work 
here in the United States on this new front, he is more than 
willing to send them in our direction.
    The other people that we have outreached to are other 
Federal agencies. As Robb has already mentioned here this 
morning, we have worked diligently with both the Customs 
Service and INS to think how best we can serve each other in 
this collective effort, not only about homeland security, but 
about getting all the other work done as well.
    We think it is a good thing for us to forge an MOU between 
us to outline those areas, if there are areas of overlap, to 
encourage the committee to see where those are and challenge us 
to be more efficient and more effective on those gaps.
    But we are also reaching to State and locals, Mr. Cummings, 
as your commentary is absolutely right on point. We are also 
reaching to the private sector. We have had engagements with 50 
or 60 trade associations getting them to understand that in the 
ports and harbors of the United States, largely privately 
owned, if there is to be a greater security profile there it 
will be made up of Coast Guard contributions, other Federal 
agency contributions, State and local contributions and private 
sector contributions. It will be the net higher security 
profile that will give us what we need in this all-hands 
evolution that I speak of.
    Mr. Souder. Is the Integrated Deep Water System still a 
priority of the categories and if so, why?
    Admiral Loy. It is absolutely, sir. Events of September 
11th simply have provided yet another set of reasons why that 
particular project, funded well, as a matter of fact, by the 
transportation bill this year by the Congress, is enormously 
important.
    What is at the hub of that project, as we call it C4ISR, 
the Command, Control, Communication, Intelligence, 
Surveillance, Reconnaissance are the kinds of thing that will 
enable us to be infinitely better as a hub of the operations 
that go on in seaports.
    We bridge to the DOD side because we are a military 
service. We bridge to the law enforcement community because we 
are a law enforcement agency. The deep water project, in 
addition to those assets that it will do for us, what we want 
in the Exclusive Economic Zone and around the world, the hub of 
it is better interoperability capability which will be 
enormously helpful to us in prosecuting our work in the ports 
and harbors of America.
    Dr. Stiff. Thank you. Mr. Bonner, how much do the counter 
terrorism and the other missions overlap? For example, when you 
inspect vehicles and travelers for bombs or other weapons, is 
that compatible with tracking for narcotics?
    Mr. Bonner. Yes, it is, certainly from the Customs 
inspection side. There is very much overlap and it is very 
complementary. I mean when you are searching for implements of 
terror, you are searching for any kind of contraband and that 
includes drugs that may be smuggled across the border. That is 
why I think you had the initial effects that I described in my 
earlier testimony. That was initially when we went to Level One 
Alert at the southwest border and the northern border with 
Canada.
    We actually saw at the southwest border, still, a large 
amount of drugs coming into the United States, coming in across 
the Mexican border. We saw that evaporate. I mean our seizures 
went way down. It was because, in my judgment, traffickers were 
holding their product and were concerned that they would take 
unacceptable risks of having their product seized.
    We have seen that, by the way, in the last month reversed. 
They have had to get their product to market. Drug seizures 
have gone up as a result of our Level One Alert, particularly 
at the southwest border. They are up 30 percent from October of 
this year compared to October of last year.
    So, those are complementary. What is not exactly 
complementary is on the agents side of the house because our 
Special Agents are also involved through Operation Green Quest 
and Operation Shield America that I described in what are 
essentially anti-terrorism or counter terrorism efforts using 
our investigative jurisdiction to help prevent terrorist 
organizations, international terrorist organizations, from 
being able to perpetrate terrorist acts in the United States 
or, frankly, elsewhere.
    Now, that has had an effect. It has not had an effect so 
far on our ability to work drug investigations through our 
Special Agents. Many times we do this, as you know, with our 
DEA colleagues.
    But it has had some impact on our investigative cases with 
respect to intellectual property rights, knock-offs of 
products. It has had some impact on that area. It has also had 
some impact on our ability to pursue Customs fraud cases which 
sometimes involve falsification of the country of origin and so 
forth.
    So, there is some robbing Peter to pay Paul that is going 
on here to maintain our posture against the terrorist threat at 
the Customs Service and at the same time perform the many other 
very important enforcement missions that the Customs Service 
has.
    Mr. Souder. I think the American people would rather be 
alive than dead, which is part of the hierarchy. On the other 
hand, if they are alive but don't have a job because we have 
had the patents stolen, it does present a problem. We are going 
to have to face those.
    Have you lost many agents to Sky Marshals?
    Mr. Bonner. Like DEA and other agencies, we have 125 
Special Agents who are in the temporary Sky Marshal Program. 
But as you know, that is about 18 months, I'm told, before we 
can expect to have those agents back. I don't think we have had 
the kind of attrition of our Customs inspectors, at least so 
far, to the Sky Marshal Program that Commissioner Ziglar was 
talking about in terms of the Border Patrol.
    But I am certainly concerned that to maintain the level of 
security and that what we are doing right now could well result 
in burnout. I am very concerned about this in terms of 
particularly our Customs inspectors who are busting their 
fannies to protect America against the terrorist threat.
    Just so you know, part of the temporary solution to that, 
if we can get the funding for it, would be to bring in National 
Guard to assist Customs inspectors at the northern border and 
the southern border as well, to assist in secondary 
examinations and assist us in pre-screening so we can keep that 
traffic flowing.
    But that is a temporary solution. Ultimately, you have to 
back that up with both people and technology to do the 
inspections and examinations that we need to do for the counter 
terrorism effort and also to maintain the drug interdiction 
posture that I think is a very important part of what the U.S. 
Customs Service does.
    Mr. Souder. Admiral Loy.
    Admiral Loy. If I might just add a comment, sir, about 20 
percent of our Special Agents have been involved in the Sky 
Marshal Program as well. Any of us in this room who thinks that 
we will not have to deal with a head count, an equipment count 
and an asset count upgrade in order for these agencies to do 
what is necessary, especially if the notion is that we have to 
go back to the same level of dedication that we were to those 
missions prior to September 11th and deal with the heightened 
profile of, in our case, port security and all the other 
agencies' cases, their contribution to homeland security.
    It is just the wrong script to be reading. It will be a 
head count, equipment count and asset count kind of solution in 
part, as well as finding the efficiencies that we can find 
where those overlaps occur.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. I have just two or three questions. First of 
all, let me say this, Admiral Loy, I hope you will pass this on 
to the folks who address the Port of Baltimore, they have done 
an outstanding job. From single report that I have gotten, we 
do a lot of briefings in the Baltimore area about the port. But 
they say that they have received maximum cooperation from the 
Coast Guard. I just wanted to make sure that you knew that.
    Admiral Loy. I will pass that on.
    Mr. Cummings. The chairman's question just leads me to 
this. I wonder what we are doing to retain the good people who 
are in the agencies and looking to the future, since we have 
this long-term thing. I think our country has changed since 
September 11th.
    Mr. Bonner, you were just talking about burnout and 
whatever. Are we looking, say, 5 years, 2 years, you may think 
it is early, but we have to make sure we have troops to deal 
with this new realization, this is security realization that 
has happened since September 11th.
    I was just wondering, is that part of your planning 
process? Are you looking at how to retain, how to recruit more 
people, those kinds of things? Is that a part of your planning 
process?
    Mr. Bonner. Well, it definitely is. I think in terms of 
planning we have to make the assumption right now that the 
terrorist threat against our country is going to go on long 
past the fall of the Taliban, the death of Bin Laden. We are 
talking about the foreseeable future. We are talking about 
years, not months, as the President has said.
    So, on the one level we have a fairly large number of 
people who have been pre-cleared. The backgrounds checks have 
been done to come into the Customs Service as inspectors and as 
Special Agents. So, we have a pool that we are ready to bring 
in, send down to training. As you know, there is some rollout 
time here. The training takes 12 to 16 months at the Federal 
Law Enforcement Training Center, and to deploy those 
effectively where we need to deploy them, which, by the way, is 
the northern border and it is the major seaports in terms of 
containers coming into the United States.
    It is very important that we have, obviously, highly 
trained and experienced both inspectors and Special Agents. It 
is very important that we be able to retain the good people 
that we have in the Customs Service. We are obviously thinking 
about ways of doing that.
    I can tell you this, Mr. Cummings, if you are consistently 
over a long period of time putting extraordinary demands on 
people, no matter how dedicated they are, and the men and women 
of the Customs Service are phenomenally dedicated, still that 
is not the way you keep people retained in their jobs.
    We have to provide them with the relief. That is both 
through staffing, so that these extraordinary amounts of 
overtime can be reduced and that is in terms of improving our 
technology so that we are actually doing and are capable of 
doing the inspections and examinations that we need to do to 
maintain security, but at the same time being able to do that 
faster, move trade and move commerce, and move people across 
our borders.
    Obviously, there is more work being done on that. We are 
studying various issues that affect the Customs Service in 
terms of retention issues that include everything from 
potentially 6E status for inspectors to what the journeyman 
grade should be and so forth.
    By the way, that is under study. I'm not in a position 
today to tell you exactly how that will come out and obviously 
whatever I think is best, I am going to have to pursue that 
through the Department of the Treasury and within the 
administration and OMB and the like.
    Mr. Cummings. I understand. I just want to make sure it is 
on the drawing board. I mean it is something that we are 
looking in that direction.
    Anybody else?
    Mr. Hutchinson. Let me just comment, Mr. Cummings, that you 
are absolutely correct. The DEA morale is high. But we always 
want to look to the future to make sure that we are able to 
retain.
    Within the agency we are looking at some quantity of life 
issues, the strain that Commissioner Bonner has referred to 
exists in the DEA as well in terms of the requirements of the 
job and the hours. So, we want to do what we can within the 
agency to make sure that we can give them the relief that is 
needed to make sure they don't have the burnout over the long 
term.
    Second, it clearly is a resource issue as well that we have 
to be able to have the capability of relief so that they can 
have a long tenure and not simply move to the private sector at 
an opportune moment. So thank you for asking the question.
    Mr. Chairman, if I could be excused, I have to head to 
another engagement. I apologize.
    Mr. Souder. Go ahead and go. I just want to make a 
concluding comment that I hope each of you communicate--Admiral 
Loy, did you want to comment on the previous question?
    Admiral Loy. I just need to make one point, sir, with 
respect to a military work force as opposed to the other work 
forces. We are working diligently with the Congress. The 
Congress has been very generous after some administrative 
proposals in the course of the last several Congresses, to deal 
with quantity of life issues for the military work force. It is 
not just the Coast Guard, but all five.
    That reality is a wonderful thing. But there remains a gap 
between military pay scales and civilian scales in general. To 
the degree there is a monetary reward notion associated with 
retention and recruiting and continued service in uniform, that 
should not be lost on the oversight committee as well as on 
those committees that have to deal with those things in an 
appropriations manner as they go through.
    These young kids that are out there that Mr. Cummings was 
very kind to compliment in Baltimore, their gratification, I 
guarantee you, is that they are doing something patriotic and 
of value to their country.
    But at the other end of the day, if we have not dealt with 
their quality of life along the way, they will put their time 
in and they will find another place to go. We are very 
concerned about both retention and recruiting.
    Since September 11th we have watched numbers very carefully 
in terms of whether or not there has been an up-tick, for 
example, in a patriotic zeal, so to speak, to join the military 
services. It is not there yet. We would like to think perhaps 
it might yet be. But the statistical inferences are not there 
yet.
    I am always of the mind that given an adequate message and 
given an adequate recruiting force we will be OK on the 
recruiting side, but the military services bring people in at 
the bottom and grow their own, if you will, through the course 
of their military career.
    So, it is the retention issue that is of great, great 
consequence to us. If I loose a 12 or 13-year E6, I don't bring 
one in from the private sector overnight. I bring him in as a 
boot camp member and 10 years later I have a 10-year E6. So, 
the retention piece on the military work force is an enormously 
important ingredient in our continued capability to have the 
wherewithal to do what we are asking these people to do.
    Mr. Souder. I hope you communicate on behalf of those of us 
in Congress our pride in the work force. I remember talking to 
one, I think it was the union head of the Customs group at 
Champlain and how he struggled with the question of when you 
have to work a double shift and you are there for 36 hours or 
the incredible amounts of time they are working right now at 
INS or Coast Guard or FBI, all kinds of people, do you find 
that people slip through the border when you are at the end of 
your 36 hours that are different at the beginning?
    The pride said no. The exhaustion says, well, maybe, but I 
try not to let it happen. Every human being knows that the 
exhaustion and the frustration that comes from that, that the 
pride and enthusiasm are only going to carry us so far. We are 
committed to try and address this.
    This committee is also going to stay focused on the fact 
that in 1998 18,000 people died of drug causes and that 
everyday children are beaten, spouses are being beaten, people 
are declaring bankruptcy, anywhere from 70 to 85 percent of all 
crime in America is related to drugs.
    We cannot back off a clear-cut, heavy pressure, constant 
pressure, chemical attack that is coming from narcotics because 
we fear about what else. In planning for the fears of what 
else, we have to have a perspective on what is actually there 
and not do the normal political pressure which is to respond to 
the urgency and then go, whoops. We have to focus as much as 
possible on both and we need to work at the resources and the 
management levels to do that.
    I thank you all for coming and all your different agencies. 
We will look forward to continuing to work with you. With that, 
the hearing stands adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 82357.044

[GRAPHIC] [TIFF OMITTED] 82357.045

[GRAPHIC] [TIFF OMITTED] 82357.046

[GRAPHIC] [TIFF OMITTED] 82357.047

[GRAPHIC] [TIFF OMITTED] 82357.048

[GRAPHIC] [TIFF OMITTED] 82357.049

[GRAPHIC] [TIFF OMITTED] 82357.050

[GRAPHIC] [TIFF OMITTED] 82357.051

[GRAPHIC] [TIFF OMITTED] 82357.052

[GRAPHIC] [TIFF OMITTED] 82357.053

[GRAPHIC] [TIFF OMITTED] 82357.054

[GRAPHIC] [TIFF OMITTED] 82357.055

[GRAPHIC] [TIFF OMITTED] 82357.056

[GRAPHIC] [TIFF OMITTED] 82357.057

[GRAPHIC] [TIFF OMITTED] 82357.058

[GRAPHIC] [TIFF OMITTED] 82357.059

                                   - 

</pre></body></html>
